<html>
<title> - MULTIPLE PROGRAM COORDINATION IN EARLY CHILDHOOD EDUCATION</title>
<body><pre>[Senate Hearing 106-139]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-139


 
       MULTIPLE PROGRAM COORDINATION IN EARLY CHILDHOOD EDUCATION

=======================================================================


                                HEARINGS

                               BEFORE THE

                SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT
                       MANAGEMENT, RESTRUCTURING
                      AND THE DISTRICT OF COLUMBIA

                                 OF THE

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                       MARCH 25 AND MAY 11, 1999

                               __________

      Printed for the use of the Committee on Governmental Affairs


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 57-615 cc                   WASHINGTON : 1999
_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402



                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
GEORGE V. VOINOVICH, Ohio            RICHARD J. DURBIN, Illinois
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
THAD COCHRAN, Mississippi            MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania          JOHN EDWARDS, North Carolina
JUDD GREGG, New Hampshire
             Hannah S. Sistare, Staff Director and Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                  Darla D. Cassell, Administrive Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                  GEORGE V. VOINOVICH, Ohio, Chairman
WILLIAM V. ROTH, Jr., Delaware       RICHARD J. DURBIN, Illinois
JUDD GREGG, New Hampshire            ROBERT G. TORRICELLI, New Jersey
                 Kristine I. Simmons, Staff Director
   Marianne Clifford Upton, Minority Staff Director and Chief Counsel
                     Julie L. Vincent, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Voinovich............................................ 1, 21
    Senator Durbin...............................................     3

                               WITNESSES
                        Thursday, March 25, 1999

Marnie S. Shaul, Ph.D., Associate Director, Education, Workforce, 
  and Income Security Issues, accompanied by Eleanor Johnson, 
  Ed.D., Assistant Director; Harriet Ganson, Ph.D., Assistant 
  Director; and Janet Mascia, Senior Evaluator, General 
  Accounting Office..............................................     5

                         Tuesday, May 11, 1999

Olivia A. Golden, Assistant Secretary, Administration for 
  Children and Families, U.S. Department of Health and Human 
  Services.......................................................    24
Judith Johnson, Acting Assistant Secretary, Office of elementary 
  and Secondary Education, U. S. Department of Education.........    26

                     Alphabetical List of Witnesses

Golden, Olivia A.:
    Testimony....................................................    24
    Prepared statement...........................................    51
Johnson, Judith:
    Testimony....................................................    26
    Prepared statement...........................................    54
Shaul, Marnie S.:
    Testimony....................................................     5
    Prepared statement...........................................    45



       MULTIPLE PROGRAM COORDINATION IN EARLY CHILDHOOD EDUCATION

                              ----------                              


                        THURSDAY, MARCH 25, 1999

                                       U.S. Senate,
       Oversight of Government Management, Restructuring,  
                and the District of Columbia Subcommittee  
                        of the Committee on Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. George 
Voinovich, Chairman of the Subcommittee, presiding.
    Present: Senators Voinovich and Durbin.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. I call this Subcommittee to order. Good 
morning. I am not as good as the Chairman of this Subcommittee 
on being on time, but it is not too bad. We would like to 
welcome you to this hearing on Coordination of Early Childhood 
Programs Across Federal Departments and Agencies.
    This is the first hearing of the Subcommittee on Oversight 
of Government Management in the 106th Congress, and I am 
pleased that we are holding it on a subject as important as 
early childhood education. Ensuring the best learning 
environment of our children, even before they reach school age, 
was my number one priority when I was governor of the State of 
Ohio.
    It is also important to know that all children entering 
school ready to learn is the number one national education 
goal. I think we forgot about our eight national goals. But 
number one is that all children by the Year 2000 will enter 
school ready to learn. Every year, while I was governor, we put 
out a report on how we were doing on those eight national 
goals.
    In my first State of the State address as governor, I said 
the only way to stop the cycle of poverty is to pick one 
generation of children, draw a line and say this is where it 
stops.
    In order to deal with that, we created something called 
Family and Children First, and that was an effort to promote 
coordination and collaboration among State and local 
governments, nonprofit organizations and parents and bringing 
together service providers to cut red tape and refocus systems 
on families rather than on bureaucracy, and it has really given 
us a boost in terms of dealing with the problems of our 
youngsters. I am proud to say that every eligible child, whose 
parent wants them to be, is in Head Start or preschool.
    I would like to see if the commitment that I have had could 
be followed here in the Senate. And that is why I have been 
disturbed by recent reports putting the number of Federal 
education programs in the hundreds. A high number of programs 
was not always indicative of a well-managed effort. In fact, it 
may indicate that we have lost track of what is out there and 
who is being served.
    The House Education and Workforce Committee's Education at 
the Crossroads Project produced a comprehensive list of 760 
Federal education programs across 39 agencies. And Senator 
Frist's Education Task Force published a figure from the 
General Accounting Office stating that there are 552 Federal 
education programs and 31 agencies.
    If you look at the chart behind me, you can see for 
yourself that GAO found that just 34 of the 552 programs are 
within the Department of Education. Twenty-eight other 
programs, like Head Start, are administered by the Department 
of Health and Human Services, and scores more by other 
departments and agencies. It is all over the place. It will 
take you several hours to figure out what is going on there, 
and then some.
    In the long term, I believe we need an accounting of these 
programs to find out the extent to which they overlap and 
duplicate each other, identify gaps in coverage that need to be 
filled and learn whether this web of education programs we have 
developed is the most efficient way to benefit student learning 
and support quality teaching.
    In the short term, we need to examine the degree to which 
the programs we already have are being coordinated in order to 
achieve maximum results. This need for coordination among 
agencies with responsibility for early childhood development is 
the focus of our hearing this morning.
    Every day I wear this pin, it says, ``Our Children,'' and 
people think I am kind of a nut because I always wear it, and I 
wear it because it reminds me that you can make a difference.
    It came about as a result of Mothers of Fragile Children 
picketing my office as governor for 6 months, and they wanted 
to have their children taken care of at home rather than in 
institutions. I was told by my agencies there is not anything 
we can do for them. And after we created our Children and 
Family First Cabinet Cluster, we got all of the agencies in 
State government that deal with children and families and got 
them in the same room. We spent a year, actually, kind of 
getting them to understand they had a symbiotic relationship.
    The first challenge I gave them was figure out how we can 
take care of these moms, and they figured it out. Today, we 
have 3,000 kids that are at home that are fragile. As a result 
of that effort, we have two child care centers now in the State 
that are open for these fragile children and regular kids, 
where they can go to school together. It proved to me that if 
you can get everyone working together, if you have shared 
goals, that a great deal can be accomplished.
    I have been working on a piece of legislation to deal with 
prenatal to 3 and looking at various Federal programs. But I am 
convinced that far more will occur, in terms of prenatal to 3 
if we could get all of the Federal agencies together at a 
table, have them talk about the challenges that are there and 
figure out how they could do a better job of coordinating their 
efforts. That would really, I think, make a much better 
difference than perhaps legislation that we would pass because 
the people who really know the programs would be getting 
together and talking about how it can be done.
    Today, we are going to be hearing from the General 
Accounting Office. I understand at the Federal level that we 
have something called the Government Performance and Results 
Act. Senator Durbin, I think they call it the Results Act. I 
guess that is the vehicle to bring all agencies together. I am 
anxious to hear from the General Accounting Office just how 
well they are coordinating their efforts and if there is 
duplication. I would like to welcome today witnesses from the 
General Accounting Office.
    Before we proceed, though, to introduce you, Marnie, and 
other members that are here with us this morning, I would like 
to call on Senator Durbin, who is the ranking member of this 
Subcommittee, for his comments.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thank you, Mr. Chairman. I really 
appreciate the opportunity to have this hearing. Education is 
so near and dear to my heart and yours as well. I know from our 
conversations that, as governor of Ohio, you made it one of 
your highest priorities.
    It is interesting to me that there are times that are kind 
of downers or depressing in public life, and whenever I feel 
that way I head on out to a Head Start program. It is a real 
shot in the arm to sit there with those kids and those 
teachers. I always leave there charged up and ready to go. That 
is just one example.
    Education, particularly of the youngest, really gives me 
such hope for this country. I mentioned to Senator Voinovich 
yesterday that I put my staff to work to answer a very basic 
question, and that is why education in America starts at age 6. 
How did we come up with age 6? They never could find an answer. 
They went to the Congressional Research Service, the Department 
of Education, and I finally concluded, just from my experience 
as a parent, that is about the age when kids will sit still. 
When I started school, that was one of the prime requirements; 
sit at your desk and be quiet, and if you could not do that, 
you were in deep trouble.
    But I think that this is important because, as I reflect on 
education, I really come to the same conclusion as the Chairman 
of this Subcommittee. The educators I speak to, if you ask 
them, ``If we could add a year of education to a child's 
education, where would you put it?'' without fail, say at the 
beginning, an earlier start in education so that we can really 
try to give kids a positive learning environment and some 
constructive help toward becoming productive citizens. And that 
is why these early childhood programs are so important.
    Having said that, I think some of the agencies involved 
here and some of the people involved here, despite their best 
intentions, get caught up in a mind set, a turf battle, 
jurisdictional problems. I read here that the Federal 
Government administers 90 early childhood programs through 11 
agencies and 20 offices. That is a recipe for duplication and 
inefficiency.
    I have addressed the food-safety issue, which has similar 
contours in terms of its problem. But when it comes to 
education, we have so few dollars and so many kids, we just 
cannot waste them on overlapping administration and conflicts 
that are created by bureaucracy inspired by Congress or other 
sources, and that is why this hearing is so important.
    I hope that the General Accounting Office will help us get 
to the bottom of this and to try to find ways to come up with 
more effective delivery of resources so the kids across America 
have a fighting chance. And I hope that we will challenge some 
of the basics before it is all over.
    We are about to embark on a new century, and I would like 
us to really step back and ask a few basic questions. Should 
school start before the age of 6? Should a school day end after 
3 o'clock? Should kids be off for 3 months in the summer? There 
are some students back here who will probably nod yes, but that 
really comes back to us from an era when kids had to go work on 
the farm, and I do not think a lot of kids do that any more.
    There are some basics that we ought to be asking and 
answering, and I am glad that this opening session of this 
Subcommittee will start asking those questions.
    Thanks, The Chairman.
    Senator Voinovich. Thank you, Senator.
    I think that the one fact that the American people have got 
to understand is that all of the research shows that what 
happens from conception to age 3, that period, is the most 
important period in the development of a child, and it is 
probably the most neglected area on the Federal and on the 
State level. I would hope that, as a result of the efforts that 
we are making, that we can reorder our priorities and start 
putting our resources into that area, where it will make the 
most difference in the lives of children. And the other side 
benefit of that is, is that it be the greatest return that we 
can make on investing in education.
    It would be interesting, Senator, for you to know that when 
I got started with this effort to increase Head Start in Ohio 
that many people did not look at Head Start as education. We 
had to convince some of the teachers that, if the kids do not 
get the Head Start, when you get them to school, they are not 
going to be successful when they are there and that, frankly, 
if that money is not invested, your chances of being successful 
with them later on are diminished.
    So we are looking forward to the testimony this morning. We 
have with us, today, Marnie Shaul, Associate Director of 
Education, Workforce, and Income Security Issues for the 
General Accounting Office. That is a mouthful, Marine.
    Ms. Shaul. It is also our new name. We just merged with 
another group on Monday.
    Senator Voinovich. Dr. Shaul is accompanied by Eleanor 
Johnson, Assistant Director; Harriet Ganson, who is the 
Assistant Director; and Janet Mascia, who is the Senior 
Evaluator. All of them are with the General Accounting Office.
    We welcome you today, and we are anxious to hear what you 
have to say.
    Dr. Shaul.

  TESTIMONY OF MARNIE S. SHAUL, PH.D.,\1\ ASSOCIATE DIRECTOR, 
   EDUCATION, WORKFORCE, AND INCOME SECURITY ISSUES, GENERAL 
   ACCOUNTING OFFICE, ACCOMPANIED BY ELEANOR JOHNSON, Ed.D., 
ASSISTANT DIRECTOR, GENERAL ACCOUNTING OFFICE; HARRIET GANSON, 
Ph.D., ASSISTANT DIRECTOR, GENERAL ACCOUNTING OFFICE; AND JANET 
      MASCIA, SENIOR EVALUATOR, GENERAL ACCOUNTING OFFICE

    Ms. Shaul. Thank you, Mr. Chairman and Members of the 
Subcommittee. We appreciate the opportunity to discuss how the 
Results Act can assist congressional oversight, especially in 
the area of early childhood where, as was pointed out, the 
Federal Government invested about $14 billion in multiple 
programs across multiple agencies in 1997.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Shaul appears in the Appendix on 
page 45.
---------------------------------------------------------------------------
    As the Chairman pointed out, I have with me a team today 
who are the folks at GAO who have been most responsible for our 
work on early childhood education and early child care.
    Specifically, I would like to discuss how the Results Act 
can address congressional oversight, especially where there are 
multiple programs within and across departments serving similar 
target groups. Then, I will discuss how two departments, the 
Department of Education and HHS, which together administer more 
than 50 percent of the early childhood program funds, address 
the coordination of these programs in their strategic and 
performance plans.
    In summary, the Congress can use the Results Act to improve 
oversight of cross-cutting issues. However, based on our 
review, the Departments' plans fall short of the potential 
expected from the Results Act. While the plans address 
coordination, to some extent, they have not described in detail 
how they will coordinate their efforts. Therefore, the plans' 
potential for addressing fragmentation and duplication have not 
been realized, and we cannot assess whether the agencies are 
effectively working together based on their plans.
    I would like to briefly elaborate on each of these points 
and ask that my written statement be included in the record.
    The Results Act can be used to address mission 
fragmentation and program overlap. The act requires executive 
agencies, in consultation with the Congress and other 
stakeholders, to prepare strategic plans that include mission 
statements and goals and also prepare annual performance plans 
that link the long-term goals with the day-to-day activities of 
the program managers and staff.
    As the agencies began developing their plans, they were 
told that the Federal programs contributing to the same or 
similar outcomes were expected to be closely coordinated, 
consolidated or streamlined. By doing this, it was expected 
that goals would be consistent and program efforts mutually 
reinforcing across agencies.
    The Results Act requirements provide opportunities for 
Congress to intervene to address mission fragmentation. For 
example, as the agencies develop performance measures, it will 
be easier to tell whether they are addressing similar goals. 
Common performance measures also will permit comparison of 
programs across agencies, and that will help decisionmakers 
sort through competing requests for funds for these programs.
    Education and HHS's Administration for Children and 
Families, which is where their early childhood programs are 
housed, address the goals and objectives of their early 
childhood programs in their strategic and performance plans. 
However, the strategies and activities that relate to 
coordination are not as well described. The Education plan 
provides a more detailed description of coordination strategies 
and activities than the ACF plan, including some performance 
measures that may cut across programs. For example, the 
Education performance plan states that the Department will work 
with HHS and other organizations to align indicators of 
progress, such as children's school readiness. These common 
indicators could potentially be used as a basis for identifying 
how different agencies contribute to goals related to 
children's cognitive development.
    The ACF plan describes in more general terms the Agency's 
plans to coordinate with external and internal programs dealing 
with early childhood goals. For example, it identifies the need 
to coordinate with the Department of Education concerning the 
Head Start program, along with other internal and external 
stakeholders in this area. However, it does not define how this 
coordination will be accomplished or the means by which cross-
cutting results will be measured.
    Overall, the information presented in both plans does not 
have the level of detail, definition and identification of 
common measures that Congress needs to assess results and 
identify potential inefficiencies in program operations.
    GAO reviewed the performance plans in 1999 for all of the 
agencies who were required to prepare plans, and we observed 
then that progress in coordinating cross-cutting issues and 
programs is still in its infancy with regard to these plans, 
even though the agencies are recognizing the importance of 
coordination.
    We believe that the agency performance plans can provide 
the building block for recognizing cross-cutting efforts, but 
that performance plans, at this time, are not sufficiently well 
developed in order to do that across all of the agencies, 
especially for early childhood programs. This underscores, I 
think, the importance of congressional hearings, like this one, 
to explore ways to identify and resolve program fragmentation 
and overlap.
    Mr. Chairman, this concludes my prepared statement, and I 
would be happy to answer any questions you or members of the 
Subcommittee might have for us.
    Thank you.
    Senator Voinovich. Thank you.
    Obviously, this Results Act had some admirable goals. And 
from your observation plans have been absent of the information 
that you need to ascertain whether or not there is an effort to 
coordinate with other agencies and to assess whether or not 
there are common goals among those agencies.
    Ms. Shaul. I think that, when you read the plans, you can 
see that agencies mention each other. So there is a recognition 
that there are agencies that are contributing to a goal like 
early childhood development. However, it is a question of what 
do you mean by coordination. Just talking to another agency or 
saying you are going to talk to another agency is not really a 
sufficient level of detail to see exactly how coordination will 
occur.
    What one would want to see, I think, is whether the 
agencies are developing some shared goals, say, around early 
childhood or perhaps their performance indicators could be 
better aligned so that they are measuring similar kinds of 
things, and you can see how together they are contributing to 
the same goal.
    The performance plans are very detailed plans, but there is 
more emphasis on individual programs within a particular 
department, and the cross-cutting issues are not as well 
developed.
    Senator Voinovich. The Department of Education has the 
first national goal, and from our information, HHS does not 
have that goal as part of their Head Start program. Is it your 
opinion that, if they both had that goal and then figured out 
those agencies and programs within the departments, that it 
would be a much better way of achieving the coordination that 
we would like to see?
    Ms. Shaul. I believe that is true, Mr. Chairman. When the 
agencies first started developing their plans, they were asked 
to, as I said, develop the performance goals and measures, and 
there was not an explicit requirement for them to demonstrate 
exactly how they were coordinating. When the plans were 
developed, the Congress said we believe this is the vehicle 
that should be able to be used by us to determine whether there 
are programs that are cross-cutting in nature and whether there 
are programs that should be consolidated, streamlined or 
whether they are duplicative. OMB followed that up with some 
guidance to the agencies indicating that agencies were expected 
to include this kind of information in the plans.
    The agencies are beginning to acknowledge that and 
beginning to do that. This is the second round of performance 
plans. In our opinion, the plans are not at a point yet where 
the cross-cutting issues are as well developed as the things 
that were originally required in the act.
    Senator Voinovich. Are they privy to your report and have 
you had an opportunity to sit down and talk to any of the 
Secretaries or their deputy secretaries or whoever you get a 
chance to speak to?
    Ms. Shaul. The GAO has issued some reports about the 
performance plans, the 1999 series. We are currently in the 
process of reviewing the year 2000 plans as an agency for all 
of the agencies that were required to do the performance plans. 
So we will be briefing members of Congress, their staffs, over 
the recess period on the results of our findings, and we will 
make that information available to the agencies as well.
    Senator Voinovich. Senator Durbin.
    Senator Durbin. Dr. Shaul, you said in your testimony one 
disadvantaged child could potentially have been eligible for as 
many as 13 programs. Many programs reported serving only a 
portion of the target population with long waiting lists. You 
give an example of the child care programs associated with 
retraining people to return to work, contrasted with Head 
Start, which certainly has a child care component to it.
    How do we break out of this? I sense that we have here a 
lot of people who understand their own version of the world, 
but can't see the big picture. I'm not sure if it was Mark 
Twain or someone like him who said, if the only tool you have 
is a hammer, every problem looks like a nail.
    And in this situation, we have people who just view 
children in a narrow category, in a narrow context, instead of 
looking at the big picture. Have you seen examples where this 
has been overcome, where people have said let us look at the 
child instead of the program and try to get a result in terms 
of that child's life?
    Ms. Shaul. That certainly is the way in which I think one 
should think about these issues. Actually, on this question, I 
would like to turn to Ms. Janet Mascia, who has done much of 
our work on early child care. Because I think one of the issues 
has been the difference between how the child care system views 
what it is trying to do with the child, especially in the world 
where more and more families have both parents working, as 
contrasted with the developmental role that Head Start has 
tried to play, and how it is the two groups are beginning to 
try and think about this problem differently.
    Ms. Mascia. Well, I think at the State level, as you know, 
Senators, that is where a lot of the overcoming of these 
barriers happens. And, for example, under the new block grant, 
with the merging of several of the old AFD funding for child 
care, States now have a lot more flexibility because they are 
not dealing with different eligibility requirements to use 
those funds, for example, at the service delivery level with, 
for example, merging with a Head Start provider to provide more 
of a full day, full year kind of child care.
    So I think, at the service delivery level in the States and 
localities, this kind of thing is happening. However, it still 
is a struggle to bring all of those resources together because, 
as we all pointed out, you are dealing with different agencies 
and different funding sources, and there still exists, to some 
degree, those kinds of barriers in terms of making those funds 
seem seamless to the child and to the family and to make it 
work for the child where the impact happens.
    Senator Durbin. So as you are peeling away the layers on 
the onion to find these barriers, does it start with the 
legislation that we pass? I mean, does Congress establish 
standards, eligibility standards, for example, funding cycles 
that really create conflict so that leadership at the State 
level, whether it is a governor in Ohio or Illinois, that wants 
to overcome it, says so the first thing we have to do is figure 
our way around all of these Federal requirements, this maze of 
regulations and laws that make it so difficult to get to the 
bottom line?
    Ms. Mascia. Right. It certainly does start at the Federal 
level, in terms of the Congress, as well as the Executive 
Branch. There is certainly legislation out there that does not 
plan these kinds of barriers. But as we know, all of that gets 
translated into regulations, and sometimes inadvertently those 
barriers crop up there. So it does happen.
    And even at the State level, there are the State's 
priorities that goes on at the State level. So it is a chain, 
so to speak, a chain reaction all of the way along. So at any 
point along that continuum, and certainly, obviously, our 
influence is at the Federal level, where we can lift that or 
help that, certainly affects it along the way, I believe.
    Senator Voinovich. I can say this to you: We created these 
Family and Children First Councils, and it came from indigenous 
leadership. It is an interesting thing that after our Cabinet 
Cluster met for a year, they had this great idea, we are going 
to create these councils on the local level, and I am a former 
county commissioner, and I said, ``If I am a commissioner, and 
you are going to mandate this, I am going to be very irritated 
with you.''
    So we turned it around. We put an RFP, and we challenged 
the counties to come in with plans on how they would coordinate 
the public-private for young children and families, and so they 
came back with their plans. We started out with 13, and today 
we have one now in every county, and they are all different. 
But one of the things that ran across all of them was the 
multiplicity of programs. And if you had a family at risk, and 
you were mentioning 13 or 14 social workers in the same family 
to access various programs, and one of the first things they 
did was to try to eliminate that and have one person that would 
be kind of the family consultant that would help refer them out 
to where they needed to get help.
    The other thing that we had to do was to take and, quite 
frankly, were not sure whether it was legal, but we got various 
agencies to take a portion of their budget and put it into one 
agency. So that when a family came in, they would be able to 
administer all of the needs of that family.
    When Congress passed Welfare Reform, and we went to the 
TANF program, and that is one thing that Congress really ought 
to look into is the flexibility that came about with the use of 
that money has just been fantastic because it was much easier 
to find wrap-around programs for families, and you had a lot 
more flexibility to deal with it and to cut some of the red 
tape that was associated with the former program. But a lot of 
this stuff starts in Washington, and then when it hits the 
local level, they have to figure out ways how they can get out 
from under it or around it, and that ought not to be the way it 
is.
    I would be interested in your opinion on how do you best 
approach the agencies--as a member of Congress, how would this 
Subcommittee, for example, best approach the agencies to get 
them to fulfill what Congress originally anticipated in the 
Results Act, in terms of their coordinating their efforts to 
achieve mutual goals and to maximize their programs and the 
dollars that we are providing for them? How do you do that? How 
do we get that done?
    Ms. Shaul. Well, one way, Mr. Chairman, is, under the 
Results Act, there is supposed to be a consultative process 
that, when agencies are developing their performance plans, 
they are supposed to come in and talk with the Congress, as 
well as other stakeholders, to discuss their goals, and 
strategies and their performance measures. The agencies are 
also, from the OMB perspective, supposed to be looking over 
each other's shoulders at each other's plans to identify the 
ways in which they share some common goals and some programs 
that may be very similar.
    I do not know the extent to which either one of those 
processes have been used. We have issued one report that said 
that the consultative process has had some benefits, but it has 
not been used, perhaps, as extensively because the whole 
Results Act process is fairly new, and perhaps more 
conversations, as the plans are being developed, between the 
Congress and the agencies would be very helpful, particularly 
where there are several agencies that may be, for example, 
working on early childhood issues.
    Senator Voinovich. In terms of your report, is there enough 
specificity in the report so they understand your criticisms in 
terms of lack of coordination and mutual goal setting?
    Ms. Shaul. I believe that GAO has said several things; one, 
that across agencies the cross-cutting issues have not been as 
well developed as the other within-agency performance goals and 
indicators, and we have acknowledged that the agencies are 
fairly early into doing the Results Act process. This is only 
their second plan, and we are expecting that they will get 
better and better at doing their plans and that the cross-
cutting issues will become better addressed year-by-year. But 
this is the second time around, and I am sure that, both from a 
Governmentwide perspective and on an individual Agency 
perspective, we will be giving feedback to the agencies that 
cross-cutting issues need to be better defined in their plans.
    Senator Voinovich. I would like to welcome Senator Edwards 
from North Carolina. Senator, we are glad to have you here. He 
is a member of the Committee and not a member of this 
Subcommittee, but he is interested enough in children that he 
was interested in stopping by this morning to find out a little 
bit about what we are doing with this.
    Senator Edwards. Thank you, Mr. Chairman. Would you like me 
to proceed? I do not want to interrupt what you all are doing.
    Senator Voinovich. We are at the questioning stage right 
now. But if you have some comments that you would like to make, 
we are happy to have you here with us.
    Senator Edwards. Thank you very much. Only what you have 
already said, which this is an area of great interest to me, 
and I think the efficient use of our Federal education dollars 
is critical, as you all have already discussed.
    I might add I have heard some of the discussion about early 
childhood programs, particularly Head Start. In our State, in 
North Carolina, we have a program which you are probably 
familiar with called Smart Start, which has been started by our 
governor, Governor Hunt. It has been extraordinarily 
successful, and the success continues to climb, as time goes 
on. I think it is interesting to watch, as I have been watching 
over the course of the last few years. Head Start and Smart 
Start complement one another. I am just interested in 
continuing to learn about this subject, Mr. Chairman. I do not 
have any questions at this point, but I appreciate you allowing 
me to attend.
    Senator Voinovich. Thank you. Senator Durbin.
    Senator Durbin. Let me go into a specific area that relates 
to this, and I do not know that much about Smart Start. But in 
Illinois we have had a pre-kindergarten program, and it has 
been run by the State government through the school system.
    I can recall several years ago when someone proposed that 
the Head Start program move into the school system, the public 
school system of America. Some Head Start programs are in 
public schools. But in its creation 35 years ago, I think, 
intentionally, Congress did not put Head Start into the school 
system, and the reason I think--and I am just guessing at 
this--was concerns in that era about whether poor and minority 
children would receive a fair shake if they went into the 
public school system, and so they said we will do this 
separately. And back in the ``Great Society'' era, they created 
a mechanism for Head Start where it really is, by its nature, 
separate.
    And yet I think it gets to the heart of this discussion 
today and your investigation as to what is the most efficient 
way to deal with this. Certainly, you would want Head Start and 
the school system to have complementary programs. You would 
want to know that if a child had a learning disability, 
discovered at an early age, that you were addressing it with 
the best professionals. So that by the time the child arrived 
in kindergarten, they would be ready to learn.
    Can you address this, in terms of your perspective, as you 
have looked at the Head Start program, and this whole question 
of whether or not integrating that into the school system is 
really putting a clash between two cultures that have been 
created over the last 3 decades.
    Ms. Shaul. Dr. Ganson.
    Ms. Ganson. In terms of looking at the Head Start program, 
first, I think one way that Head Start is now reaching out to 
get involved with school systems, as well as other 
organizations, child care programs, is through the 
collaboration grants. And in that way, they are meeting the 
needs of the community by hooking up with child care programs, 
getting wraparound care, perhaps some of that in the schools so 
that the preschool would be in the morning and in the afternoon 
they would be in the school for child care. So they are doing 
that through collaboration grants.
    In terms of whether it should be in the schools or not, the 
philosophy of Head Start has always been that the grantee would 
do a community assessment, community needs and that they are 
different, and within their community they would take whatever 
course of action would make sense, be that in a school or 
through hooking up with other organizations. But I think you 
are right in terms of there is a trend now to go more toward 
pre-K programs. I think New York has one now. So you are seeing 
more of them.
    Senator Durbin. There is another interesting aspect of 
this, I believe, and that is, if you take a look at where you 
are going to put the pre-K child, that pre-K child, in a baby-
sitting situation may be under the supervision of a person 
being paid $2 an hour, in a day care center, a person being 
paid $5.50 an hour. I am not sure what the average wage is at 
Head Start. My guess is it is a little better than $5.50 an 
hour. If the child were in a kindergarten in a public school 
system, the teacher in charge is probably making a fairly 
decent income, at least in comparison to the other two or 
three. So there is a real disparity in income of the adult 
supervision that we are providing for these kids, depending on 
the setting that they end up in.
    Ms. Ganson. Well, I think the other part of it is that, 
when we think of the school system, we think of the educational 
system, and I believe what Head Start would say is that the 
Head Start program is a comprehensive child-development 
program. And in that sense, it provides health services, 
nutrition services. It involves parents in ways that school 
systems would not. So, in that sense, it is different. It also 
provides educational services.
    Senator Voinovich. It is interesting that you want to 
improve the quality of the staff and the teachers. At the same 
time, you do not want to rule out the participation that we 
have had over the years in the Head Start program because so 
often a lot of people are not aware of this, that you cannot 
participate in Head Start unless the parents are involved, and 
it is not 100 percent, but it is pretty good. And it is amazing 
the transformation that occurs when the parents get involved 
with their children.
    I know, 2 years ago--every year I give out Governor's 
Awards, and I gave one out to a former Head Start mom, who 
started out there, got her undergraduate degree, went on and 
got her Ph.D. But it started out as a Head Start mom, and she 
got into it, and the Head Start program also connects up those 
families with other social services that exist there. One of 
the things in this legislation that I am contemplating 
introducing here one of these days is an expenditure, a modest 
expenditure, to pay for satellite dishes that we have in Ohio 
that are bringing in education to child care and Head Start 
Centers to improve the education of those individuals that are 
working in those centers and also to educate the parents on how 
they can better develop their children when they leave their 
child care for Head Start sitting at home.
    So it is a real challenge to improve it, but I think if you 
just move them into the regular system, I think you might lose 
a lot of that. And, quite frankly, it would cost a great deal I 
think more money if that occurred.
    I would like to just ask one other question, and then I 
will send it back to Senator Durbin. If you were sitting in our 
seats right now, and you wanted to guarantee that the agencies 
that are involved in early childhood are doing what the Results 
Act wants them to do; that is, to coordinate and to try to see 
how they can maximize their resources to make the biggest 
impact, how would you go about getting them to do that?
    Ms. Shaul. I think if I were in your shoes, I think this 
hearing is a very good start, as folks are on notice that you 
are interested in this question, and you are specifically 
interested in how agencies are going to coordinate, and that is 
not going to go unnoticed.
    I think that letting the departments know about your 
concern about having the cross-cutting issue of early childhood 
addressed would be good. You certainly could have people from 
the departments come in and talk with you about their 
performance plans and how they are addressing this issue, the 
cross-cutting aspect of it in their plans. That would be, I 
think, a good set of first steps.
    Senator Voinovich. I would like to ask Senator Durbin, 
because I am new to the Senate, and I am not sure just what we 
can or cannot do because of the separation between the 
legislative and the executive branches of Government. But if we 
asked the departments to review that portion of the GAO report 
that dealt with early childhood, and then said to them we would 
like them to sit down with other departments and to discuss 
that, and then to come back and report to this Subcommittee 
about what their response is to the GAO report, and then what 
they are planning on doing in order to remedy that situation 
and work together, is that a legitimate request that we can 
make or do we not get into that kind of thing?
    Senator Durbin. Well, as a seasoned veteran of 24 months in 
the Senate---- [Laughter.]
    Senator Durbin. I think it is a great idea, and I think we 
ought to just move forward on it. I like that because it really 
puts some substance to the suggestions from the GAO and their 
observations and lets the agencies come back and report to us 
in terms of what they have done and what they will do about it. 
I like it.
    Senator Voinovich. Eleanor?
    Ms. Johnson. I think a series of hearings also provides a 
forum, just as you said you had seen the value of drawing all 
of the agencies in the State around a table and talking. Using 
this forum would also allow the agencies to more clearly 
communicate to you what coordination they are doing.
    I do not want you to leave here thinking that HHS and 
Education never talk to teach other. They certainly do, and 
they have joint projects and regularly talk about specific 
programs. For example, they have been working out mutual 
indicators for Head Start and Even Start. Head Start is run by 
HHS and Even Start is run by Education.
    So there are a lot of coordination activities going on. 
However, part of the difficulty that we have had in answering 
your questions has been that all of these things do not appear 
in the plans. Just the fact that you have singled out an area 
or a small handful of areas that are really of critical 
importance to you from a policy standpoint and alerts the 
agencies that you are interested in really understanding how 
they are working together on these issues will start all kinds 
of things happening.
    Senator Voinovich. Senator Edwards.
    Senator Edwards. I was just curious. I know from talking to 
some of our folks here in North Carolina, that the perception 
existed that the reason that we needed to do Smart Start, which 
is the State government program, was that Head Start was not 
being as effective as we might hope. Have any of you done any 
sort of look or study at the distinctions between Head Start 
and Smart Start in North Carolina, any familiarity with that 
subject?
    Ms. Shaul. No.
    Ms. Ganson. I do not.
    Ms. Shaul. No, we have not. But I guess what I might add is 
that GAO has done some work looking at the research about Head 
Start. Although that is an enormously popular program that has 
served millions of children, the research that is available 
about that program is not clear, in terms of what effect the 
Head Start program has on the developmental experience of 
children versus how children just naturally grow up. So getting 
good information on the effect of programs on final outcomes 
for small children is a very difficult and sometimes expensive 
research task.
    Senator Voinovich. Well, I think that the Smart Start came 
in--our program in Ohio is called Early Start. What it 
recognizes is that, if you can immediately identify a youngster 
in a family that is at risk or the family is at risk, that you 
have a much better opportunity to make a difference than if you 
wait until that child is ready for the Head Start program, 
which is usually when they are 3 or 4 years old.
    One of the things that we are doing, and I know that Jim 
Hunt is--by the way, Jim and I are, in fact, we are like little 
competitors. He stole ideas, and I----
    Senator Edwards. But he takes credit for all of them. You 
know that, do you not? [Laughter.]
    Senator Voinovich. But that is OK. He is just terrific.
    Senator Edwards. He is. He is wonderful.
    Senator Voinovich. He is just one of the most enthusiastic 
people I have ever met in my life. But the fact is that we are 
using TANF money for our Early Start program. I think we are 
spending about $45 million on it right now.
    And the concept of it is that if you--and some of these 
families, by the way, are not Welfare eligible. They are 
working poor. They are poor families, but they are not on 
Welfare yet. So that money is being used for the Early Start 
program. And one of our problems is, even if they are Welfare 
eligible, does that trigger the 5-year period that families are 
eligible or ineligible for Welfare? But those are the kinds of 
things that it would be interesting to see where Health and 
Human Services has the TANF program, the money is there. I 
mean, the States have the money. Is there a way of utilizing 
that money and folding it in with something that maybe the 
Department of Education is doing.
    Senator Edwards. If I could ask one question. I would be 
also interested in knowing, I know we are talking here about 
the coordination between Federal agencies, I would be 
interested in knowing whether we could look at or should look 
at the coordination with State programs, which are similar, 
which are complementary, which do, as George says, and he is 
exactly right, as the Senator says, I think that is exactly 
what we are trying to do in North Carolina is to identify kids 
who are at risk as early as possible and get them on the right 
track developmentally and educationally. At least in the 
counties we have been able to fully implement it, it has been 
very successful.
    And so I would just be interested in knowing whether--and, 
Senator Durbin, maybe you can help me the this, too--is that 
the sort of, are we asking too much or is that something we 
should be doing or maybe it is already being done?
    Ms. Shaul. We actually have a study underway right now for 
a committee in the House, where we have been asked to look at 
what is the array of very early childhood programs serving low-
income children, zero to 5, looking at the array of programs, 
trying to get an assessment from folks at the State and local 
level about where the need is the most. Is it for infants? Is 
it for toddlers? Is it for the 4 to 5 year olds? And then also 
trying to identify what are the barriers that might be faced in 
coordinating the various early childhood programs. That study 
is going on right now. We are doing at least three surveys of 
State and local folks, as well as some site visits. That report 
will be ready in November.
    Senator Edwards. It seems like there is tremendous 
potential for overlap and, as a result, tremendous potential 
for inefficiency if we do not do something, a study, and 
determine what those overlaps and inefficiencies are.
    Ms. Shaul. Dr. Ganson is reminding me that we went to North 
Carolina as one of our States.
    Senator Edwards. Good. I am glad to hear that.
    Ms. Ganson. And Ohio is one.
    Ms. Shaul. Coincidentally. [Laughter.]
    Ms. Mascia. If I might elaborate on that point, too. You 
bring up some good points about the two programs you talked 
about in North Carolina and Ohio. I mean, one of the reasons 
those were started up is we need to understand that the Welfare 
Reform law is also driving now the requirements of the very 
families we are trying to reach with Head Start. As you pointed 
out, one, it increases their income because they are now 
working and, therefore, may not be eligible, in some cases, for 
Head Start, as well as increase the need for younger children 
getting care and more full-time care.
    So the Welfare Reform requirements really intersect now 
with what is going on with Head Start and just, I think, 
underscores, as you all point out, the need that these all be 
very coordinated at all levels of Government.
    Ms. Ganson. Again, about the Head Start program, I think 
recently there has been more of an emphasis on infants and 
toddlers, as evidenced by the Early Head Start program, which I 
think now is being evaluated. And the other thing is the recent 
expansion has moved from expanding just the number of children 
in Head Start to giving existing programs more money to allow 
for the full-day option. So I think there is more of a 
recognition of what are the needs of the families that we are 
trying to serve.
    Senator Durbin. If I could just comment on that for a 
minute. I have been a big fan of Head Start, having visited 
programs all up and down my State. But I thought that my 
support of it is more intuitive than scientific, intuitive 
because, as a parent, my wife and I raised three kids, and we 
felt, whether it was our home or some other place, it was the 
best for those kids to be in a safe, positive learning 
environment, even before they went to the first classroom.
    I have always been curious, because when you ask the Head 
Start people about performance standards, they start talking 
about the Ypsilanti Study which, if I am not mistaken, was in 
the sixties. I have been curious as to whether or not we have 
had any real updates. Because if we are going to start talking 
about performance standards, we have to be honest about what we 
are looking for.
    I think that the three things I mentioned, a safe, positive 
learning environment for young people, is a great alternative 
to what other kids might face; sitting in front of a ``boob 
tube'' all day with some baby sitter or in a home where a 
parent has no education, to speak of, and no parental skills 
and, frankly, is not going to do much for that child unless 
they get some guidance.
    But I guess it gets down to the bottom line, we are more 
and more focused on outcomes and performance standards. I am 
not an educator by training. I do not know what it is we really 
should be looking for. We all agree that there is such a thing 
as early childhood development. We all believe that we can help 
children if we get to them early and get them on the right 
track. I do not know how much we will be able to test. I do not 
know if we have to look way down the line to see the results of 
this, as to whether or not the kids turn out to be good 
students or whether or not we are trying to establish some 
measurable standards in an area where it may be tough to do. I 
do not know if you have run into that.
    Senator Voinovich. They have done some longitudinal studies 
on things, and I think that the general criticism of the Head 
Start program is that, once the kids get in the third and 
fourth grade, it falls off, and they perform just like any 
other third or fourth grader, and the debate is they are going 
into schools that are not stimulating them, and as a result of 
that, they fall. So it is not enough to have a good Head Start 
program, but you have got to have good all-day kindergarten, 
and you have got to have those first 3 years in school. In our 
State, for example, now, we have reduced the class size to no 
more than 15, and understand that you have got to have a good 
place for the children to come into.
    I think you should know that we are, because we are so into 
Head Start, we started a longitudinal study a couple of years 
ago. So we are going to really have an opportunity to see just 
how well these youngsters are going to do and have a better 
idea to evaluate the program. And the fact of the matter is, is 
that the programs are all over the lot. In some places they are 
spectacular and others we have had to close them down because 
they just have not been run the way they are supposed to.
    I think, I have said to our Head Start, because I meet with 
them every year, I said the big light is shining on you, and we 
are investing a lot of money in you, and we are expecting you 
to show a return on the investment that we are making.
    So I think that more and more people are understanding they 
are going to be measured in terms of what they are doing, and I 
think that is another reason why those agencies that are on a 
Federal level ought to understand that some of these programs 
are going to be measured, and if they do not get involved with 
the people that they are working with on the State and local 
levels, the programs are not doing what they are supposed to be 
doing, then they may wake up 1 day and find out that those 
programs are no longer going to be funded.
    And that is part of this multiplicity of--I cannot believe 
that out of all of these education programs that we have got up 
here, there are not some of them that ought to be closed down 
or, in the alternative, the money that is being spent could be 
better allocated into something that is going to provide a 
better return in terms of our investment, and my cause would be 
to say take some of that money and put it into zero to 3, where 
we know that it could really make more of a difference than, 
say, in some other area.
    Ms. Shaul. If I might just add one thing that the Results 
Act requires. Early next year, in March, the agencies are going 
to be required to have an annual progress plan that looks at 
their fiscal year 1999 performance. It is the first time they 
are going to be actually talking about their progress toward 
their goals, their measurements of progress which is meant to 
be a way to let people see differences in success rates between 
different approaches, and it is meant to have agencies look at 
how to improve what they are doing. So that will be another 
piece of information that will be available in about a year.
    Ms. Mascia. If I may also elaborate on your point earlier 
about reaching younger children. Again, I think it is very 
relevant to Head Start. As the research shows, we are beginning 
now to understand that children, from the time they are born to 
well before they even had a Head Start Center, let alone a 
classroom, need a stimulating environment.
    And I would just point out that many children are in 
environments that are not centers, are not Head Start Centers, 
and the challenge, I guess, as you know in your programs 
probably in North Carolina, to address that challenge is how do 
we reach the more informal providers out there who are caring 
for our very youngest children because, in most cases, that is 
where our infants and toddlers are. How do we craft programs 
that help them, and support them and provide care?
    Senator Voinovich. Well, I will tell you one of the things 
we are doing, again, in Ohio, is kind of a pilot project for 
Public Broadcasting. And we know there is a lot of mom-and-pop 
child care centers. In fact, I think one of the Senators 
yesterday was talking about child care money. In Ohio, we are 
finding that child care money is going wanting. In fact, we 
have increased the eligibility or we have relaxed the 
eligibility to try and let people with higher incomes take 
advantage of it because a lot of Welfare people are not taking 
advantage of the program. So they are somewhere, with a 
grandmother or grandfather.
    What PBS is doing is they have put together a curriculum, 
and they are meeting particularly with at-risk families in 
libraries. And they give this material to them, and they go 
home, and it is coordinated with their programming. And so 
that, before the program goes on, they can read to the child, 
and then afterwards they have a curriculum to reinforce it.
    As part of this bill that I am putting together, it would 
increase the amount of money to Public Broadcasting, so that 
they could put that program on a Web site and make it available 
to everybody in the country, no matter what their socioeconomic 
status is, if they have a computer and a printer.
    So that, in my case, my son, his wife decided to stay home, 
and so she can get this stuff off the Internet, plug it into 
the programming of the television, spend the time with the 
youngster, reinforce it. And most of our child care centers in 
Ohio are Head Start. They have got a computer, they have got a 
printer, and they can do the same thing there; in other words, 
we can multiply this thing.
    And it is really, through technology, a reasonable way to 
reach a lot of families that do not have any ready-made program 
for them and, in some instances, cannot afford a real fine 
child care center and decides I would rather have my child with 
grandma or somebody else.
    We need to find ways that we can work on this matter and do 
more with less and reach out. And I think we also have to 
understand, I think, that all kids need this; in other words, 
it should cut right across the whole socioeconomic study.
    On this, you were talking about Early Start. Two years ago, 
when I did my State of the State, I brought in people who had 
benefitted from State programs. And this may sound elementary, 
but we had an Early Start woman from one of our rural areas, 
and I asked her, ``Well, what has the program done for you?''
    And she said, ``Well,'' she said, ``you know, when I 
brought my baby home, the baby was in the crib, and I watched 
TV. And because of the Early Start program, someone from the 
Welfare agency came out and spent some time with me and 
explained to me that I ought to read to my baby, and that I 
ought to hug my baby, and that I ought to rub my baby, and went 
through a lot of these things. She, frankly, taught me how to 
take and make materials using these Ziploc bags, making a book 
out of a Ziploc bag, where you staple them together and then 
you can stick pictures from magazines.''
    It is kind of simple stuff, but without that, she might 
have continued to have the baby in the crib, and she is 
watching TV, and that child would have lost all of that 
opportunity to be stimulated during that period that is so 
important for the development of that child.
    Does anybody else have some questions?
    Senator Edwards. Just very briefly. I wanted to follow up 
on something that was mentioned earlier.
    You mentioned a study that is being done in the House. Are 
folks actually going to States like Ohio, and North Carolina, 
and Illinois and looking at, for example, in my State, Smart 
Start programs, where they are, where they are located, 
comparing them with where Head Start programs are located, the 
services provided by the two, the extent to which there is 
overlap between the two? Because I have to tell you I have been 
all over North Carolina, and I have been in a bunch of Head 
Start Centers, and I have been in a lot of Smart Start Centers, 
and I had this visceral reaction that there is very little 
coordination. They say there does seem to be overlap, there 
seems to be huge gaps, which is actually of at least as much 
concern to me.
    Can you tell me a little more about whether those specific 
issues are being addressed in that study.
    Ms. Shaul. I would like to ask Dr. Ganson to address this 
because----
    Senator Edwards. I see her nodding. So she must have----
    Ms. Shaul. That is because she is leading this study.
    Ms. Ganson. We are looking at coordination. I think what we 
found is that there is a lot of variability in terms of 
coordination at the State and local level. In terms of Head 
Start, I think it is more recent that they have collaborated 
more, but I think in some areas it is more than others. I do 
not know, off the top of my head, what the collaboration grants 
in North Carolina, if there are grantees that have them and 
what those would involve, but usually they involve hooking up 
with other preschool centers, as well as other service 
providers.
    In our study, what we are doing is we are talking to all of 
the different players who are involved in early childhood, and 
we are talking about what does your community do to coordinate 
these activities, what barriers are you finding to having this 
coordinated, help provide and form an efficient use of 
resources, and how is this all coming together?
    So that is basically the focus of this study. The three 
questionnaires are going to give us more of a national 
perspective on facilitators and barriers as well as what kinds 
of needs are easier or more difficult to get; for example, 
preschool, part day, full day, infant, toddler, mildly ill 
children. So we are asking about also services provided. But a 
key part is coordination, and the case studies are going to 
sort of give us some of the meat to fill out the story that we 
are getting on a national level.
    Senator Edwards. On an emotional level and a rational 
level, I think the folks in North Carolina truly believe in 
these programs. I mean, they do. They just do not want their 
money spent inefficiently. I think they want to see these 
things work, and they want to see their tax dollar being spent 
the way it ought to be spent.
    I just want to say one other thing, Mr. Chairman, and there 
certainly have been problems in Head Start. We all know that. 
But it can be an incredibly inspirational thing because I have 
personally experienced it. To go into a Head Start Center, see 
a good Head Start Center, see it working. And you ask what is 
the best example of how well this center is working, and they 
point out the four or five men or women working in that center 
who started in a Head Start Center who are now 20 years old or 
22 years old. It is a moving thing to hear those men and women 
talk about what effect it had on their lives and why they are 
so devoted to the program.
    So I have to tell you that it can be, while there are 
certainly problems, there is no doubt about that, and we need 
to do everything we can to eliminate those problems and be 
efficient and particularly to coordinate between agencies and, 
in my opinion, between Federal and State programs, it is a 
critically important thing, and I just wish more people could 
go into some of these centers and see what good they are doing.
    Senator Voinovich. Well, I would just like to say one other 
thing. You are talking about local collaboration. Progress 
cannot be made unless you have the indigenous leadership in the 
local community working together to try to coordinate the use 
of the resources in the community, and I think that is one 
thing that we need to stimulate more on the national level and 
reward communities for creating local collaboratives, where 
they do get together to try and figure out how they can best 
serve the needs of the people and their respective communities.
    We did that in the State level, but there ought to be more 
thought given to it, I think, on the Federal level that says, 
if you get together on the local level and create these 
collaboratives, we will be able to make some more resources 
available, as kind of an incentive to do that. It is not easy 
to make that happen because, in so many instances, there are 
such turf wars that go on in communities where, even if you 
find a hole, you know, that it is not there, that you cannot 
get anybody because it is a question of, well, is that mine or 
is that yours, and neither one of them are doing anything about 
it.
    Back when I was a county commissioner, we did this great 
survey of all the social services. We had the School of Social 
Work at Case Western Reserve, one of the finest in the country, 
do the thing, and they came back, all of these agencies 
overlapped. And before the study, they were all excited about 
it. Well, after it was over with, and there was a lot of 
duplication, and it meant that maybe a public institution could 
be closed down and a private institution could be done better 
or vice versa, it just blew up, and that was the end of it.
    So some of this is very difficult to get done. I think what 
has happened in years since then, and that was back in 
seventies, is that because of the scarcity of resources, and 
perhaps a deeper appreciation of how important it is, the need 
is there, that these agencies seem, today, to be more willing 
to work together than they did maybe 20 years ago.
    Are there any other questions that anyone would like to 
ask?
    [No response.]
    Senator Voinovich. If there are not, we appreciate your 
being here today, and we are going to follow up on what you had 
to say and see if we can get those agencies in here.
    One last request I have, and that would be if you could 
give us the best information that you have available of the 
agencies across the board that are dealing with zero to 3, I 
would be grateful because it would then give us a good idea of 
just what is out there on the smorgasbord.
    And maybe once we get through it, these main two agencies, 
we could see if we could bring in some of these other folks 
that are doing things. For example, I think the Department of 
Agriculture is involved in this in a big way.
    Thank you very much.
    Ms. Shaul. You are welcome.
    Senator Voinovich. This hearing is now adjourned.
    [Whereupon, at 11:14 a.m., the Subcommittee was adjourned.]


                    MULTIPLE PROGRAM COORDINATION IN
                       EARLY CHILDHOOD EDUCATION:
                         THE AGENCY PERSPECTIVE

                              ----------                              


                         TUESDAY, MAY 11, 1999

                                     U.S. Senate,  
       Oversight of Government Management, Restructuring,  
                and the District of Columbia Subcommittee  
                        of the Committee on Governmental Affairs,  
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:35 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. George V. 
Voinovich, Chairman of the Subcommittee, presiding.
    Present: Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Good morning. The Subcommittee hearing 
will come to order. I would like to share with you, first of 
all, what this Subcommittee is all about in terms of education.
    At our first hearing, we talked about the fact that we had 
a multiplicity of education programs. According to a House 
study that was done last year, there were some 760 programs in 
various Federal agencies dealing with education. The Senate 
Finance Committee had a study done by the Government Accounting 
Office and they came back and said there were 540 education 
programs in some 31 different agencies.
    What I thought would be fruitful for this Subcommittee is 
to look at those education programs to determine what they are 
doing, are they needed, and could the money be better spent in 
other programs, could they be better coordinated, and perhaps 
some of the money reallocated into areas where recent studies 
show that money could be better spent.
    The area that I thought we would begin with would be the 
area of early childhood. According to the GAO, the Federal 
Government administers approximately 90 early childhood 
programs through 11 agencies and 20 offices. The programs 
identified--GAO has identified 34 of them as key--that is, 
education and child care were key to the mission of the 
programs out of those 34. The early childhood programs consume 
most of the Federal dollars and account for approximately 83 
percent of all early childhood program dollars, so a big share 
of the dollars that are being spent are being spent in 
education or child care.
    I began the effort to look at these programs in the 
prenatal-to-3 area because I think there is a large lack of 
attention to these programs in this country today. I recognized 
that early on as Governor of the State of Ohio, and I tried to 
recognize that as Chairman of the National Governors' 
Association, where we made prenatal-to-3--in fact, Bob Miller, 
the Governor of Nevada and I, teamed up and said we are going 
to do a 2-year goal of the NGA to get people involved in early 
childhood and prenatal-to-3 programs.
    It is interesting that when I first met Rob Reiner a couple 
of years ago, and he has been a real big booster of prenatal-
to-3, and it is interesting, he is commenting now about all of 
the response to the Littleton situation. He is going back and 
saying, hey, this is where it is at. I will never forget, when 
I first met him, he looked at me and he said, ``The most 
important thing that you did in your life as Governor is to 
draw a line in the sand and say, this is the last generation of 
Ohio's children that are going to jail, going on drugs, 
becoming pregnant while they are teenagers.''
    In other words, we decided that we would make a difference 
with that group of people, and as you know, I am very proud of 
the fact that our State is the first State in the country that 
has a slot for every child who is eligible in Head Start or 
public school preschool, where the parents want them to be in 
the program.
    I think that there is no question that all the research 
work that is out there indicates that prenatal-to-3 is a 
crucial time in a child's life. There are some learned 
researchers, educators, and juvenile justice people who say 
that if we really want to do something about juvenile crime and 
perhaps avoid the kind of thing we did experience in Littleton, 
that we need to focus in this area.
    It is interesting, a couple of years ago, I had started 
reading John DiGilio's work at Princeton about the coming 
predator generation and I got really nervous about it. So we 
had a juvenile crime summit in 1997. I think a lot of people 
that came were expecting tough love and, frankly, some of the 
stuff that is being talked about today with the juvenile crime 
bill on the floor of the Senate were the things that needed to 
be done in order to make a difference.
    I was a bit surprised when they came back and said, that is 
not what is needed. What is needed is this prenatal-to-3. It is 
making a difference in children's lives very early on. If you 
put your resources in that and your attention there, you would 
do a whole lot more to deal with the juvenile crime problem 
than probably anything else that you can do.
    So I want to draw the line in the sand at the Federal 
level, and the way to do that, I think, first, is to look at 
the programs that the Federal Government is already involved in 
that support prenatal-to-3 and support those programs, and 
where appropriate, increase funding for them.
    Second, to coordinate the dollars that are being spent to 
make sure that those dollars really do make a difference in the 
lives of our families and children.
    And third, I think you both know that I am working on some 
legislation, prenatal-to-3, that I have been working with the 
National Head Start Association and the Children's Defense Fund 
that is a modest effort to really encourage collaboration on 
the local level by providing incentive funding to them and 
flexibility so that they can do more for families and children.
    So we are here today, and the thought that I wanted to deal 
with the second part of this, the coordination and making sure 
the dollars we are spending are appropriately used. I was not 
familiar with this before, but I am now, and that is the 
Results Act. It is a valuable tool for the Subcommittee in 
evaluating overlap and duplication and also the Act requires 
agencies to set outcome-based goals, measure their performance, 
and report their accomplishment. I do not know what anybody 
else is going to do, but I would like to share with you that I 
am going to pay attention to the Results Act. We are looking at 
it in several other areas, but this is an area that I am going 
to look at and see how we are doing in terms of what it is that 
agencies say that they are going to be doing.
    Specifically, the Act requires agencies to develop 
strategic plans, including mission statements, outcome-based 
goals, and an explanation of how goals will be achieved and how 
progress will be measured. The plans were completed in 1997 and 
the second annual performance plans are now ready for 
Congressional and for GAO review, so we are going to be 
watching the progress.
    On March 25, which I am sure you are both aware of, we held 
a hearing where GAO looked at the Departments of Health and 
Human Services' and Education's 5-year strategic plans and 
fiscal year 1999 and 2000 annual performance plans and 
testified on the Departments' coordination efforts. They 
testified, GAO, that although the annual performance plans 
addressed the issues of coordination, the plans provide little 
detail about their intentions to implement such efforts. 
According to GAO, the plans do not address the challenge of 
coordinating programs that serve similar populations while 
having different key objectives.
    On April 1, I wrote to Secretary Shalala and Secretary 
Riley and I asked that they look at that GAO testimony and 
comment on several items that addressed the issue of overlap 
and duplication and I asked three questions. Do you agree or 
disagree with GAO's assessment of your efforts to coordinate 
with other departments and agencies? If you do agree that your 
plan could be better, how do you intend to improve your efforts 
to coordinate with the Departments of Health and Human 
Services, Education, and other critical agencies?
    That is another thing. There are a whole host of other 
agencies that are really not at the table here, and my thought 
would be that since your two departments spend most of the 
money and are more involved, that it would be kind of 
interesting to see how those other Federal agencies, including 
the Departments of Agriculture and Labor, could kind of 
piggyback on what you are doing so that there is an effort made 
to have a total plan of the agencies that are out there and how 
we can have a full-court press of the agencies and dollars to 
really make a difference in the prenatal-to-3 area.
    And last but not least, the Department of Education names 
all children enter school ready to learn as a key objective, 
but this is not an objective of Health and Human Services. How 
do you approach program coordination when the programs do not 
share a similar overall objective? From reading the letters of 
the Departments and your testimony, obviously, maybe HHS does 
not mention that, but it is there. Even though it is not 
written down, it is a goal.
    This morning's hearing is to give you an opportunity to 
comment on GAO's testimony on March 25, and to share your 
thoughts on ways that you can better coordinate. I am very 
pleased that we have two outstanding witnesses here with us 
this morning. I am pleased you are here, because you really 
work with these programs, and I would have liked to have both 
of your secretaries, but it is nice to have people that are 
closer to the street. In all probability, you would have 
prepared their testimony anyhow.
    Our two witnesses are Olivia Golden of the Department of 
Health and Human Services, and Judith Johnson of the Department 
of Education. I hope that you can assist the Subcommittee in 
our pursuit of a system where Federal education programs yield 
measurable maximum benefits for our families and children.
    We are expecting Senator Durbin, and when he does come in, 
if you do not mind, I will introduce him and maybe give him a 
chance to share with you his thoughts, and then we will 
continue with the testimony.
    Our first and only panel represents the Departments of 
Health and Human Services and Education, Olivia Golden, 
Assistant Secretary for the Administration for Children and 
Families, ACF, right, the Administration for Children and 
Families of the Department of Health and Human Services, and 
Judith Johnson, Acting Assistant Secretary of the Office of 
Elementary and Secondary Education at the Department of 
Education.
    Your full statements, of course, will be entered into the 
record and we would hope that you would kind of summarize those 
for us this morning. I would like to call on Ms. Golden first 
for her testimony. Again, thank you for being here.

    TESTIMONY OF OLIVIA A. GOLDEN,\1\ ASSISTANT SECRETARY, 
 ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Ms. Golden. Mr. Chairman, thank you for the opportunity to 
discuss the coordination of early childhood programs. I know 
that early childhood education has been a top priority of 
yours. I have had a chance to visit Ohio and see some of what 
you have accomplished, so I particularly welcome the chance to 
discuss these important issues today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Golden appears in the Appendix on 
page 51.
---------------------------------------------------------------------------
    In partnership with the Congress, the administration has 
provided leadership in early childhood programs in several 
different and complementary ways. First, in response to the 
tremendous need, we have expanded public investment to help 
low-income families with child care expenses and to provide 
high-quality, comprehensive early childhood programs to help 
children enter school ready to learn.
    President Clinton has placed a high priority on steady 
increases in early childhood funding, leading to doubling the 
level of funding for child care, expansion of Head Start to 
serve 1 million children annually by 2002, and establishing the 
early Head Start program for children under the age of 3. The 
President has continued this commitment in his fiscal year 2000 
budget proposal by requesting an historic increase for Head 
Start expansion and quality improvements, as well as critically 
important investments in child care, including a new early 
learning fund.
    The second component of our leadership efforts is improved 
program quality and accountability for results, described more 
fully in my written testimony.
    Third, and of special interest to this Subcommittee, is the 
development of outcome standards and measures for Head Start 
and child care programs. The Government Performance and Results 
Act set in motion the first national effort to identify 
specific outcomes for federally-funded early childhood programs 
and a system to measure and track progress on these performance 
measures.
    Drawing on the work of the National Education Goals Panel, 
in consultation with early childhood experts, we created a 
cutting-edge system of 24 outcome measures to track progress 
towards improving the healthy development and learning 
readiness of young children. We set up the Family and Child 
Experiences Survey, or FACES, to assess performance on these 
measures in a nationally representative sample of local Head 
Start agencies. Initial findings from the FACES survey already 
are being used to pinpoint strengths and areas for needed 
improvement in local Head Start programs.
    I would like to turn now to key areas where we are working 
to improve coordination so that the full spectrum of early 
childhood programs work together for children.
    First, we are working to ensure that funding strategies 
provide incentives for collaboration. For the past 3 years, the 
Head Start Bureau placed a priority on partnerships in awarding 
more than $340 million in program expansion funding. This 
policy led to providing full-day, full-year services to more 
than 50,000 additional children in partnership arrangements 
with child care and pre-kindergarten agencies and resources.
    Second, we are working to ensure that Federal policies 
support collaboration and to identify and remove obstacles to 
collaboration that are based on misinterpretation of Federal 
regulations. For instance, the Child Care Bureau provided 
guidance to prevent unwarranted problems in auditing agencies 
that use funding from different Federal programs and issued a 
memorandum clarifying the flexibility available to States in 
defining eligibility across child care and early education 
programs.
    Third, we are providing technical assistance to remove 
barriers to collaboration and to share successful models and 
strategies. For example, we are supporting training and 
technical assistance to help child care and Head Start agencies 
collaborate with Department of Education programs such as the 
Even Start family literacy effort and programs for infants, 
toddlers, and children with disabilities.
    Finally, we are bringing together early childhood and child 
care leaders and other partners to solve common problems and 
plan for the future. For example, the Head Start collaboration 
initiative links Head Start with State programs in child care, 
education, and other key services for young children and their 
families. The Healthy Child Care America campaign supports 
collaborative efforts of health professionals, child care 
providers, and families to improve the health and safety of 
children in child care settings. And Head Start, Child Care 
Bureau, and other HHS staff are active members of the 
Department of Education's Federal Interagency Coordinating 
Council to coordinate programs that serve young children with 
disabilities.
    Community, State, and Federal efforts pay off in 
partnerships that truly make a difference for children. My 
written statement describes a project in Philadelphia that was 
able to combine Federal housing, child care, Head Start, and 
job training funds to assist a mother and her 5 children in 
turning their lives around.
    Recognizing the positive impact of coordinated early 
childhood programs, ACF seeks to build on and expand our 
existing efforts. We will support collaboration and the use of 
outcome measurement for early childhood programs through the 
early learning fund, which is part of the President's fiscal 
year 2000 budget. This is flexible results-focused funding 
which will assist States and communities in maximizing existing 
early childhood resources, strengthening partnerships, and 
improving quality.
    In addition, ACF and the Department of Education will co-
convene administrators of child care and pre-kindergarten 
programs and Head Start leaders to explore collaborative 
approaches to program funding, monitoring, performance 
outcomes, professional development, and technical assistance, 
and we will begin a new effort with the Department of Education 
to review opportunities for further coordination in the areas 
of performance indicators, funding, service strategies, and 
research.
    Thank you for giving me the opportunity to summarize my 
written testimony, and I would be delighted to answer any 
questions.
    Senator Voinovich. Thank you very much.
    We would now like to hear from the Hon. Judith Johnson.

  TESTIMONY OF JUDITH JOHNSON,\1\ ACTING ASSISTANT SECRETARY, 
 OFFICE OF ELEMENTARY AND SECONDARY EDUCATION, U.S. DEPARTMENT 
                          OF EDUCATION

    Ms. Johnson. Thank you very much, and thank you for the 
opportunity to testify before your Subcommittee with Assistant 
Secretary Golden on this very important topic of early 
childhood education.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Johnson appears in the Appendix 
on page 54.
---------------------------------------------------------------------------
    As you have noted, I have submitted written testimony and 
would like to take this opportunity to highlight the major 
themes in that document.
    Recent studies in child development have vastly increased 
our knowledge about learning development between birth and age 
3, and we know what factors enhance early learning experiences. 
Over the years, the Department has worked in close 
collaboration with the Department of Health and Human Services 
to help States and local communities provide high-quality early 
childhood education, and we are fortunate, Senator, to count 
you as a committed leader in this field.
    As you know, the Education Department's work is framed by 
eight national goals, the first of which is every child in 
America will enter school ready to learn. Secretary Riley has 
identified the early years of childhood as the period in which 
we have the most potential to make the greatest gains.
    School districts and States across the country are 
beginning to offer opportunities to participate in early 
childhood education programs to children from poor families, 
and as a seasoned educator, I know firsthand that these 
children face enormous challenges during their first years in 
school.
    As an example, one district that responded to this 
challenge using Title I funds is the Charlotte-Mecklenberg 
School District in North Carolina. They use 85 percent of their 
Title I funding to provide early childhood education for poor 
3- and 4-year-olds. Children participating in this program 
enter kindergarten better prepared than similarly economically-
disadvantaged children who do not participate in the program.
    I spent 2 days visiting this program and left with a 
wonderful sense that children were provided with a caring, safe 
environment, and that their teachers believed all children 
could become successful students. The school's mission was 
developed based on this belief.
    The Department, in partnership with other Federal agencies, 
such as HHS, must act as a catalyst to support innovative State 
and local district programs aimed at increasing opportunities 
for students to experience high-quality education. The 
Department's strategic plan includes a school readiness 
objective as well as strategies to improve services to our 
young children before they enter formal schooling.
    Our 2000 annual plan specifically lays out performance 
measures and strategies for interagency coordination in the 
area of early childhood, as recognized by GAO in its assessment 
of our plan. Our performance indicators are used as monitoring 
devices.
    However, the GAO testimony commented on the need for 
Education to provide a more complete picture of intended 
performance. So, in response to that concern, allow me to offer 
several highlights. I will focus on coordination activities in 
three areas: Coordinating research, coordinating services, and 
coordinating performance measurement. They are more fully 
described in my written testimony.
    Coordinating research--the Department has created the Early 
Childhood Research Working Group. It is coordinated by the 
Office of Educational Research and Improvement (OERI), the 
National Institute on Early Childhood Development and Education 
(NICHD), known as the Early Childhood Institute, or in our 
office, ECI. It links with other offices in the Department and 
approximately eight other Federal departments to support 
research, data collection, and services for young children and 
their families. The group's recent meeting was focused on the 
Children's Research Initiative. This group discussed child care 
studies and a research competition focusing on improving how 
young children are taught mathematics and reading.
    The Department's Office of Special Education, ECI, and 
NICHD and Health and Human Services jointly sponsored the 
``Preventing Reading Difficulties in Young Children'' report 
produced by the National Research Council. This is another fine 
example of interagency collaboration, and it is a document used 
across the country.
    The study synthesizes the most effective current research 
on the teaching and learning of reading. A significant section 
of this report explores how literacy can be fostered at birth, 
and from birth through kindergarten and the primary grades. It 
also includes recommendations on effective professional 
development and instruction for young children.
    The National Research Council also produced a customer-
friendly guide for parents, teachers, and child care providers 
entitled ``Starting Out Right.'' It describes how to promote 
children's reading success and prevent reading difficulties.
    Now, I will discuss coordinating services across agencies. 
We understand the importance of ensuring that early childhood 
education is coordinated across Federal agencies and with State 
and local entities responsible for providing services. As I 
said to you just prior to the opening of this hearing, our 
customers need to see it as a seamless set of services.
    The 1994 Elementary and Secondary Education Act (ESEA) 
requires that local districts using Title I funding provide 
early childhood development services that comply with the Head 
Start performance standards. This requirement provides for a 
more careful alignment of performance goals among early 
childhood programs in the Department of Education and at HHS.
    The Even Start family literacy program administered by the 
Office of Elementary and Secondary Education (OESE) is based on 
interagency coordination. Even Start draws on existing service 
providers to integrate early childhood education, adult 
education, and parenting education into a unified program. 
Rather than duplicating preschool services, the collaboration 
between the Department and HHS works toward improving the 
quality of services provided to our most vulnerable children.
    The recently authorized Reading Excellence Act included 
several amendments to the Even Start program that further 
emphasize collaboration. One of these amendments provides $10 
million annually for State-wide family literacy coordination to 
help States coordinate and integrate literacy services. Ohio is 
one of the eight States that already receive grants under this 
program.
    As to coordinating performance measurements, as seen in 
these examples, the Department has made progress in the area of 
interagency coordination, but we know the Department needs to 
do even more. We are developing a joint coordination plan with 
HHS, which we will submit to Congress by the end of this year. 
Areas of coordination that we will address include performance 
indicators, service strategies for early childhood, and 
research.
    Coordination of indicators among early childhood programs 
was included in our annual plan and was also a recommendation 
of the Department's recently released report to Congress on 
evaluation of Federal education legislation enacted in 1994. In 
this report, we point out the lack of consistent expectations 
for school readiness, which makes it difficult to assess a 
program's effectiveness in supporting the learning and 
development that young children need for school success.
    In addition, our Early Childhood Institute and the Office 
of Special Education Programs are sponsoring a study of early 
childhood pedagogy with the National Academy of Sciences. The 
study, which will be completed in early 2000, will tell us what 
young children need to experience and learn if they are to be 
successful in kindergarten and what measures will best assess 
what young children have learned.
    In conclusion, across all of the agencies you mentioned or 
counted, we are all committed to ensuring that goal one, 
children entering school ready to learn, is achievable, 
measurable, and a reality for all of our children. We 
understand that early childhood experiences are critical to the 
future success of our Nation.
    Thank you for providing me with this opportunity to 
testify, and I, too, would be very happy to answer any 
questions you may have.
    Senator Voinovich. Thank you very much.
    One of the things that probably argues against coordination 
to a degree with prenatal-to-3 or prenatal-to-4 or 5 years is 
that the education community for many years, at least in our 
State, looked at kindergarten to 12 as education and did not 
really consider prior to that as part of their responsibility.
    What we did--I chaired the Readiness Task Force for the 
National Governors' Association when John Ashcroft was actually 
Chairman. It was obvious that not only is education important 
in the early years, but also all of the other things that 
provide that wonderful setting so that children can develop 
properly, which includes the social services, child care, good 
health care, maternal care, and the rest of it, and that those 
types of things are just as important as the education 
challenges that you give a child at that stage, because if you 
do not have those, it is very difficult for them to take 
advantage of it.
    You have talked about Even Start, and I think the 
Department is working on Early Start. Is there an Early Start 
program?
    Ms. Golden. The Early Head Start program serves infants and 
children, ages 0 to 3, before they enter preschool.
    Senator Voinovich. Right, that brings them in earlier.
    Ms. Golden. That is right.
    Senator Voinovich. What is Even Start, then?
    Ms. Johnson. Even Start is a program that focuses on both 
the family and the child, and there are three goals in Even 
Start. One, adult literacy, and that is providing parents with 
the opportunity to improve their literacy skills; two, giving 
them opportunities to develop and fine-tune their parenting 
skills; and, three, at the same time providing for early 
childhood education. And the early childhood education part 
could be a Head Start provider--in fact, in many of our Even 
Start programs, they are Head Start providers. What we are 
looking at in this program is strengthening the family unit at 
the same time that we are providing early childhood experience 
for children.
    The Even Start program has received very good recognition 
and very positive evaluations. What we have learned is that 
children who have gone through the Even Start program continued 
to demonstrate success when they enter school, and their 
parents are more involved in their schooling once they enter 
formal schooling.
    Senator Voinovich. It is interesting that you say that, 
because one of the reasons why we made the commitment that we 
made to Head Start and which a lot of people do not understand 
is that it is a program that insists that the parents become 
involved. So often, the social worker that is working with them 
identify problems at home and begin the parents to take 
advantage of improving their educational situation, pursuing a 
GED. Several years ago, I gave out the Governor's Award to a 
woman who started out as a Head Start mom and received her 
Ph.D. and her kids have all gone.
    So it seems to me that both of these are falling in the 
same category. Are you really looking at Head Start as the 
place where you would place these dollars, or doing it 
differently, and if you do the Even Start program, do you start 
at the school or where do you initially make the contact?
    Ms. Johnson. The school community can usually identify the 
children, because they are not school-age yet, where their 
families are eligible for services. The identification of who 
benefits from the program is really done at the local level. 
But I want to emphasize the fact that this is in collaboration, 
in almost every instance, with a Head Start provider. They 
provide the early childhood experience. What we are trying to 
do is encourage the communities to bring all the providers to 
the table to provide a comprehensive set of services that will 
benefit both the adults in the family and the child.
    I just want to comment on your observations about the 
importance of providing these early childhood experiences. I 
have only been with the Department 2 years, having spent 30 
years in New York State as a veteran educator, and the last two 
positions I held were at the district level, as a district 
administrator.
    We discovered around 1985 that more and more of our 
children were coming to kindergarten totally unprepared, as 
defined by the kindergarten teachers. So we had to make some 
big decisions, bring in health and human services people from 
the local community, sit around the table and try to decide 
what we could do for these young children. At that point, we 
began to expand the Head Start services in one community and 
the State pre-kindergarten program in the second district that 
I worked at, and the difference was amazing.
    What we were finding with the children who did not have 
these early childhood experiences, they simply did not have 
school-readiness skills as a teacher traditionally finds; they 
were unable to sit for long periods of time. Many of the 
children did not know what a crayon was, and we would have 
thought that was something that most teachers would have 
expected. Well, that is very easy to remedy. The dilemma is, if 
you do not help these children develop the school-readiness 
skills, they are sometimes mislabeled when they get to a 
regular school. That mislabeling does not need to occur if you 
have a solid early childhood program in place and the parents 
are involved from the very beginning.
    Senator Voinovich. The thing is, you say the school 
district reached out, and we have some public preschools. The 
real issue is, how do you get these dollars that are all 
dealing with the same customer, but there are streams coming in 
from different departments, and how do you, again, maximize 
that, then?
    I am glad to hear that the Even Start money is going into 
that, but you have a lot of States, like Ohio, and in this 
legislation that I am going to be introducing in the next 
couple of weeks, we are going to allow TANF money to be used 
for a program that we refer to as Early Start, which really 
identifies during pregnancy families that could use the benefit 
of counseling and help when the baby is born, that you are 
right there and you have somebody working with them and sharing 
with them what they need to do. It is money coming out of your 
pot.
    Ms. Golden. And you know that under the regulations we have 
published, TANF funds are now available to States to use for 
needy families for child care and early childhood services. I 
think it is really important that you are highlighting that for 
States, because some are choosing to use that option, but not 
all of them.
    Senator Voinovich. I want to compliment you, too, because 
we were really worried about your regulations coming out and I 
think you really listened to the customers and, for the most 
part, the reaction I am getting is that what we originally 
thought were going to be pretty restrictive and not very 
flexible have been--they have done a good job on it.
    Ms. Golden. Thank you.
    Senator Voinovich. Thank you very much.
    Ms. Golden. Thank you very much.
    Senator Voinovich. But you move to Ed-Flex. It is very 
interesting. You were saying that they are using Title I public 
preschool money for 3- and 4-year-olds. Now, that is not 
traditionally a Title I population. I just wonder, in order to 
do that, were they a State that had Ed-Flex waivers?
    Ms. Johnson. No. Actually, that is a provision as a result 
of the most recent legislation. It is just that in many places, 
historically, the Title I money has been placed in the 
elementary schools, and to make that major shift to providing 
pre-kindergarten or early childhood experiences means that the 
district must secure monies from some other source to support 
the elementary program. So it has been a difficult decision for 
many districts to make. But where they have made the decision 
and moved the money into the early childhood experiences, the 
benefits are enormous as the youngsters enter school because 
the need for support services is somewhat diminished and the 
children are better prepared for school.
    Senator Voinovich. The thing that hits me, and that is what 
this hearing is about, is that you now have TANF money going 
into Early Start, you have Even Start, and then we have Title I 
money coming in for 3- and 4-year-olds, which is a Head Start 
population, though I am sure that some of the kids may not be 
eligible for Head Start that are taking----
    Ms. Johnson. Actually, in the one place that I mentioned, 
they were able to combine the Title I funds and the Head Start 
funds to create a full-day program, an enriched full-day 
program for students. That is a real savvy use of funds.
    You know, with all of the funds that you have identified 
and the programs that you have mentioned, we have not yet 
reached every 3- or 4-year-old in this country who could 
benefit from these services. So we still have a ways to go to 
ensure that there is a place for every 3- and 4-year-old to go 
to receive an early childhood experience, particularly those 
whose families could not afford to pay for the private 
experience. And until we reach that, I would say we need to 
continue to look at the funds that are available and the 
programs that are providing services and make sure that they 
are coordinated.
    Senator Voinovich. I think that is the key----
    Ms. Golden. Right.
    Senator Voinovich [continuing]. Because you have two 
departments, that there needs to be that kind of coordination 
in the communities. I mean, you have your Head Start 
collaboration, which has been something that we have really 
emphasized. In fact, one of our people went to Washington and 
spent some time there----
    Ms. Golden. She was wonderful. It was really wonderful that 
she came to work with us.
    Senator Voinovich. Yes, to kind of get an idea of how it 
is. But it would seem to me that in any plan that you are 
putting together that there be some aspect of it that has a 
mechanism so that you can sit down with the superintendent of 
education in Cleveland, for example, and say, you have your 
Title I monies. You do have an opportunity to utilize those 
dollars for 3- and 4-year-olds. You do have your Head Start 
program. What is the status of that? Could you piggyback on 
that without creating a new mechanism in the community, and 
then talk about the other money that is available for child 
care.
    One of the things that is the real challenge that we have 
had, and the Department has encouraged this, is the issue of 
having child care and Head Start located at the same place so 
you do not duplicate the physical facilities. One of the 
biggest problems we had in expanding Head Start in Ohio was we 
just did not have the physical facilities to do that. Then we 
started to open our eyes to some of the child care facilities 
and said, ``Gee, why do we not start doing that? ''
    But it is this effort, this coordinated effort of these 
programs, that are so doggone important. From an administrative 
point of view, I do not how you get that done, whether it is 
through the Head Start collaboration or not, but it just seems 
that, from my observation, that too often, you get one group 
going off over here doing their thing and another group going 
off over here, and you do not get that kind of--and then there 
are the difficult things. We have family social service centers 
now that we are putting into our schools where the teacher that 
has a problem has it right there in the school and they can 
deal with this as an elementary, and actually in middle and 
upper secondary, so that the coordination has got to be much 
better than it is.
    You have to almost ask yourself, if you are going to have 
all of this money going from prenatal to, say 5 years, does it 
make sense that you have got all of these streams of money 
coming in from two departments, and maybe even three or four, 
and would you be better off if you had one agency administer 
those programs rather than having two of them do it?
    Ms. Golden. Could I speak a little bit to both examples of 
where collaboration has worked and to your question about how 
to make collaboration work better in the future? I think they 
are related.
    When you were talking about both the struggles and the 
successes in Ohio, I was thinking about the chance I had to 
visit a child care program in Cincinnati, Ohio which had come 
together with Head Start. I think that this effort was sparked 
both by your commitment to early childhood education and by our 
use of Head Start expansion funding, to encourage collaboration 
by putting dollar incentives behind it. And so in Cincinnati, 
child care programs that were willing to take on the Head Start 
performance standards and live up to them could then become 
Head Start programs and get that funding, if they were willing 
to do the quality of care that would lead to school readiness.
    I visited a program and I asked the child care director--it 
was wonderful--what she had found most important, and she said 
that it was partly the training for the staff, but the most 
important thing for her about becoming a Head Start program was 
having access to the disability coordinator and the speech 
therapist and the different people who could come through and 
help her with the kids' needs. This is really just what you 
were saying about putting together the resources to address 
educational needs and other intensive needs. So that was one 
example where we were able to put all the pieces together at 
the local level.
    But the point you are making, I think, is that having 
success is putting all the pieces together in one place does 
not guarantee that you can do it everywhere. So how do you make 
that possible?
    I think that for me, a key element of that is being clear 
on the outcomes and the measures, because if you can be clear 
on the goals, then you really can pull people together. I 
mentioned in my written testimony the work that we have done, 
with a lot of expertise from the Department of Education and 
outside educators, on the FACES survey, to develop indicators 
for school readiness and Head Start. We are going to be using 
some of those indicators in the Department of Education's early 
childhood longitudinal study-kindergarten cohort (for which we 
are also providing some funding) so that some of those measures 
will be used in a lot of different settings.
    In my experience, one of the ways you can help get people 
to really focus on using their dollars together, is if they 
understand what the results will be. I do not know if that fits 
with your experience, but I have found that if you are paying 
attention to the results so people are sharing that mission, 
that is often a way of getting the pieces together.
    Senator Voinovich. That is another thing in the testimony, 
that you are doing this longitudinal study. That longitudinal 
study, that is coming out of your shop, out of Education?
    Ms. Johnson. Yes.
    Ms. Golden. There are two things going on, the ECLS and 
then the FACES study, and we are linking them by using some 
common measures in both places.
    Senator Voinovich. But that will be looking at your Head 
Start preschool programs, that study, or what is it 
specifically looking at?
    Ms. Golden. The study that we are doing is a national 
survey of Head Start that will follow children from the time 
they enter Head Start through their completion of the program 
and entry into kindergarten and first grade. We are already 
learning some important things in Head Start children about 
school readiness, about the change from fall to spring, about a 
range of measures, and about the quality of the program.
    At the same time, the Education Department is doing a 
major, very large national survey that is a sample of all 
kindergarten children. What we have done is take some of the 
indicators that we all developed together for Head Start 
children and we are using the same set of indicators in the 
Department of Education's national study, so that we will be 
able to look at comparisons across different groups of 
children. So it is a really exciting example of our two 
departments trying to put two pieces together so that we can 
learn more than we could from either study alone.
    Senator Voinovich. I do not know whether it is the Carnegie 
Foundation is doing it or not, maybe you know, but we really do 
need to have a longitudinal study made of Head Start and 
preschool programs to really follow them up, because when you 
finally get out to defend some of these programs, a lot of it 
is anecdotal, yes, they do better, and so forth, and then you 
have people that are really--I ran into it in Ohio--well, they 
fall down, they lose it after they get to the fourth or fifth 
grade. Of course, part of the problem there is they go into 
learning experiences in school where they are not be challenged 
at all, and so, like everyone else, you can fall back.
    That is why, for instance, in our State, we have now in 
almost all of our urban districts, not in all of them, we have 
reduced the class size to less than 15 because we realize that 
for the first 3 years, how important they are to continue the 
stuff that the kids get.
    But I really think that there ought to be collaboration 
between your two agencies and really start to do this and do it 
as scientifically as you can, unless there is some private 
outfit out there that is doing it, so we will have that 
information. We are going to be putting a lot more money into 
this, and ultimately, you have to justify why are you putting 
this money in, and in some instances, people would like to 
spend it on something else and you have got to say, this is 
really worthwhile. It is a wonderful investment to do that.
    The 24 performance measures, are these being used, then, 
across the board for all of the programs that are being funded, 
public school, preschool, Title I?
    Ms. Johnson. You are talking about----
    Ms. Golden. They are not to that point yet. One of the 
things we have committed to you in the letter is that we are 
going to talk about how all the pieces fit together. The 24 
performance measures are ones that were developed specifically 
for Head Start, drawing on the works of the education world, 
the early childhood world, the national goals panel. We 
developed those measures so that we could look at exactly the 
kind of questions you are asking, such as what happens from 
fall to spring? What happens to children's ability to read, to 
their social skills, all those things? What we have already 
found out, based even on pilot results, is that as we would all 
expect, the quality of the program is related to the 
achievement of positive outcomes for the child. So, while the 
quality of Head Start programs is generally good, we need to 
make sure that we have even more that are truly excellent.
    In terms of what we need to do next, we are working with 
the Department of Education and working with some States that 
are interested in using the performance measures we have 
developed more broadly. One of the things that prompted our 
shared interest in moving ahead with those next steps, in 
response to your letters, was that we realized that there was 
lots going on on the research front where we were working 
together, but where we needed to pull together even more.
    Ms. Johnson. Let me comment on that, too. We are 
recognizing more and more the importance of data collection, 
data analysis, and that is not just at the early childhood 
level but at the elementary and secondary level as we continue 
to provide Federal funding for programs. It is collecting data 
over time to look at how students are performing that we think 
is really very important, and in addition to that, we are 
launching a major initiative to try to learn more about how 
children learn in the early childhood years and how data can be 
used; that data can be used to inform practice when they enter 
kindergarten.
    We mentioned briefly in the testimony that we are planning 
to organize a joint coordination team, and we are still in the 
very early stages of that, but we do plan to have the concept 
well developed and people assigned to this Subcommittee before 
the end of the year, and we will get that information back to 
your office.
    Senator Voinovich. One of the things, if you look around to 
the communities that are perhaps getting the job done, it is 
where you have collaboratives, and part of this legislation 
that we are going to be introducing encourages the 
collaboration of public and private agencies. In Ohio, we call 
them our Children and Family First councils, where you get 
everybody at the table and, frankly, have the ability, and we 
were talking about earlier how do you figure out how you can 
get all your resources and bring them to bear, and that is one 
of the ways that has been very, very successful for us, is that 
people come to the table and figure out, how can we take 
advantage of it.
    It should be done--you guys should be doing it on the 
Federal level to the best of your ability, to figure out how 
you can work together so that when it gets to the local level, 
that they can access it in the most effective way. But it also 
helps if there is a level of sophistication on the local level 
of the programs to be able to take advantage of that, and I 
think the more that you can do that, for example, the 
Departments of Education and Health and Human Services, get the 
people who are in the social service agencies and the educators 
at the table.
    I remember in Cincinnati several years ago, the 
superintendent of public schools showed up at this Children and 
Family First. I mean, they just do not show up at these things, 
that this is not our area. But it was something to celebrate 
because it was a recognition by the superintendent of public 
schools in Cincinnati that this work being done was very 
important to the future of the education system. So the more 
that that can happen, I think, the better off we are.
    I think part of your strategy ought to be to figure out, 
how do we encourage this kind of thing to happen on the local 
level, where people are encouraged to come together and to 
perhaps put aside their turf issues, which you run into 
everywhere.
    Ms. Johnson. Let me comment on that a bit. To be eligible 
for Even Start funds, you must come to the table as a team. You 
must identify all the service providers and bring them to the 
table and submit a common application. So one is simply by 
competition. If you want to be eligible for funds, you need to 
think about who you bring to the table.
    The State-wide family literacy initiative in Ohio has 
received one of those. It also requires that all the service 
providers come to the table at the State level, and that is a 
very good way to model for local districts, the conversations, 
the actions, and the plans that come out of that work.
    Now, as a former deputy superintendent, I will tell you 
that it is really important to be at the table with social 
service providers around the city because that is the only way 
you can really ensure that everyone is pulling together to 
improve upon the quality of education for schools. So you are 
going to find us at the table all of the time. That is just an 
essential part of the job.
    Ms. Golden. I also share the view that both of you have 
expressed that it is incredibly important. I thought about 
collaboration as an academic before I came to this job and was 
always struck by how, in addition to having the shared mission, 
the personal relationships really matter in order to get past 
the turf bottles and the other obstacles. People need to know 
each other and be able to pick up the phone to talk to each 
other.
    One of the things I have tried to do when I travel is to 
sit down with that array of people, so I can tell you that in 
Cincinnati, they are still coming to the table together, at 
least as of when I was last there.
    I think that in terms of what we do at the Federal level, 
it is partly about modeling, as you have highlighted. It is 
partly about trying to ``run interference'' on the funding. It 
is about providing financial incentives for collaboration, as 
we did, which is now a theme that you are focusing on, too. It 
is also about overcoming myths and misinterpretations. I am 
sure this happened when you were governor, too, but I hear 
people tell me all kinds of things that they have been told are 
obstacles--there is a rule, you cannot do that. Then I go and 
try to track down the rule and discover it is not a rule. It is 
somebody who was telling them something was more rigid than it 
was.
    So we have been trying to do a lot of work in terms of 
accurately laying out the flexibility that exists by putting it 
down on paper. Even when we think something is obvious, we have 
learned that people sometimes need to see it in writing, so 
that their auditors or whoever cannot tell them that ``there is 
a rule.''
    The third thing that can be a challenge when the Head 
Start, early education community, and child care communities 
try to get together is that the child care community is so 
short on some of the resources that are needed to produce 
quality and the Head Start and early childhood programs often 
are part-day, so they may not be in a position to meet the 
full-day needs. I'd be eager to see how your proposal deals 
with this issue.
    Getting the resources out there to upgrade child care 
programs so they can really do school readiness, I think, helps 
the collaboration process. The Early Learning Fund that the 
President has proposed as part of the child care initiative 
would aim to get flexible dollars through States to communities 
for that 0-to-3 population particularly, but also for 
preschool, if they needed it, with the idea that it would be 
flexible. In one community, all the child care for babies may 
be in family homes and what you really need to do is train, 
support, dramatically improve what is going on in those homes. 
Somewhere else care may be mostly center-based so you could do 
some work strengthening the quality of care in childcare 
centers in a flexible way. So I guess I think that that is one 
piece of the puzzle, because that is an obstacle I have run 
into sometimes in trying to put those pieces together.
    Ms. Johnson. I know you are puzzled by that, but we have 
historically lived in traditionally categorical programs and 
thought in categorical ways at the local level, and it was not 
always common for service providers in TANF, in health, and in 
early childhood and child care providers and schools. It was 
not a common occurrence to bring people together to the table.
    But as we began to recognize the growing crisis in 
providing adequate early childhood educational experiences for 
children who were being held to much higher standards at the 
elementary level than they had ever been held to before, and as 
we modeled it at the Federal level, at the State level, and 
then put out applications that required that they come to the 
table, you began to see more and more people recognizing the 
importance of bringing everyone to the table.
    I can recall some of the early meetings I had in my most 
recent position where there was a lot of discomfort initially. 
People were feeling they were going to lose their identity and 
might even lose their funding, until we recognized that only by 
bringing all of the streams of funding into the room and 
identifying how together they represented a comprehensive set 
of services that could only benefit the community as well as 
the school and the child did people begin to relax and talk 
about how they could share.
    So it is going to come more and more with dissemination of 
really good practices, with more and more modeling. We are 
putting out publications that we are developing jointly with 
HHS, with Justice, and with the Department of Agriculture, all 
intended to help communities think more deeply and more 
thoughtfully about how you bring resources together around the 
table for one common goal: Ensuring that all of our children 
are entering schools ready to learn.
    Senator Voinovich. I think that that would be a wonderful 
area of coordination between your two departments, because part 
of the incentive package--I know when I got started with this 
whole concept of how do we bring everyone together, I had seven 
of my State agencies that spent a year and a half developing 
our Children and Family First cabinet council. We worked with 
the National Governors' Association, and I will never forget, 
they were out in Colorado and they were all together and they 
came back and they were all fired up and they were going to 
impose these councils on all of our 88 counties. I said to 
them, ``No, I could not do that.'' I am an old county 
commissioner and mayor, and I said, ``I do not like to have 
somebody mandate something.''
    So what we did is we put a request for proposal together 
and made money available and said, if communities will come in 
with a joint effort, getting together the various social 
service agencies, they will become pilot projects, and I think 
we had maybe 54 applications and we awarded about nine of them. 
Of course, the ones that did not get it were very disappointed 
and they wanted to know whether or not they could show up for 
the State-wide quarterly meetings and what was going on.
    To make a long story short, today, we have 88 of them in 
the State, not actually 88 because several counties have gone 
together, two or three more rural counties. But the fact is, 
they are all different and they have different leadership and 
it is not a cookie cutter approach. This legislation I am 
talking about does allow that, encourages people to do that.
    Again, as I say, if you could think about programs and how 
do we have incentives out there among the ones that you have to 
get them to get it, that this is the way to really help our 
community is to come together at the table, I think we 
certainly would be a whole lot better off.
    The other thing that I would be interested in, and I am 
sure you have done it, but I would like if you could share this 
with me, would be to put on a piece of paper the various 
programs that you have and how they deal with the same 
population, and I am sure that you have it, but I would like to 
see it and how you are thinking about how you have all these 
programs and how they best could be coordinated among your 
agencies. I would just like to see them.
    Ms. Golden. And I would be glad to do that. The overview I 
would give on the early childhood side of the world is that we, 
essentially, have two big programs. We have the Head Start 
program and we have the child care and development block grant. 
As you know, one of the things that the administration and 
Congress did in the welfare reform legislation was pull 
together the child care side. It had been four separate 
programs and they got pulled together. So that, I think, was a 
big accomplishment.
    So now we have on the child care side a single funding 
stream, essentially, for States, and then Head Start. A lot of 
our work, as you saw in the testimony, is about how to work 
with both communities and States in building partnerships 
across those two pieces. If it would be useful to you, we would 
be delighted to follow up with further information.
    In terms of the President's proposal on child care, that 
proposal includes both additional dollars that would go as 
subsidies to parents in the major child care funding stream. It 
also includes this early learning fund with a special focus on 
flexible dollars that could be tied to results for very young 
children. So we would be glad to provide more information, if 
that is useful.
    Ms. Johnson. Let me describe some of the programs that we 
have, because I am hoping this will help clarify what to the 
outside world seems like so many programs and so few people.
    I mentioned Title I and the use of those monies. We also 
have in the Department of Education a significant allocation in 
our Office of Special Education Services for pre-K and early 
childhood and toddler education. And if you think about a day 
in the life of any normal hospital in a large city, you think 
about 20 youngsters born in one particular day, and they come 
to life with a variety of experiences already as prenatal 
babies. Some come from poor, working poor, some may come from a 
family where English is not spoken at home, some may come from 
mothers who are addicted to drugs or alcohol, and some come 
from relatively healthy families.
    When you think about these 20 youngsters born in a day and 
you recognize you have to have in place an array of community 
services to ensure that they all are at the same playing field 
when they enter the first grade. So the trick in the school 
district community is to figure out how you look at this 
combination of students who were born on this particular day 
and ensure that as they move through those early years, or 
infancy years, we have hooked or linked their families with the 
appropriate services. At the same time that we are doing that 
in terms of social services, we are ensuring they receive the 
appropriate early childhood education experience.
    To the degree that we become more proficient in describing 
this, more creative in helping people to understand the 
importance of this, to the degree that we are able to help them 
understand that these 20 children born on this one particular 
day have very diverse needs--and you are right, no one cookie 
cutter approach will meet the needs of those 20 children, 
either--you begin to help people understand why you need an 
array of services to ensure that when they enter that first 
grade, they have received the support they need to be 
successful.
    Senator Voinovich. I think that is why we are taking our 
TANF money and putting it into Early Start. The Governor of 
Vermont--who is the Governor of Vermont?
    Ms. Golden. Howard Dean.
    Senator Voinovich. Yes. Howard Dean, several years ago, put 
a program in place where each family is visited, and now Ohio 
is doing that with, ``at-risk families and also with first 
born, anybody, no matter what their socio-economic is, the 
first-born child.'' First of all, I think that maybe you 
identify that early on during the prenatal period, but 
certainly when that child is born, to have that mechanism there 
to make the identification, and once it is made, to be able to 
have the programs that are available to help that family.
    Again, what are those programs? I suspect you can use Early 
Start and TANF money. It is one of the things that governors 
liked about TANF, is the flexibility that you got with those 
dollars, that you can deal with problems. The same way with 
problems of multi-handicapped families.
    We had examples where they had 14 different social workers 
for them to access programs, and through our Family and 
Children First groups, they came back and recommended. So what 
we did in those counties was get a lot of agencies to put money 
in one pot, and again, I think we probably violated Federal 
guidelines, but that family then could come to one place and 
access those resources and we could help them without forcing 
them to shop around. In addition to that, we had one person 
that was kind of their family helper to deal with that.
    I think we need to just redouble our efforts to try and 
make sure that this is all coordinated. I know that you are 
interested in making sure the money is well spent on the local 
level. But I can tell you that the more flexibility and the 
more you partner up with the people who are closest to the 
customer, I think the better off everyone is going to be, 
because I think they really know more about how to deliver 
those services than we do here in Washington.
    I think we also have to recognize that there is a variety 
of urban districts and there is a whole vast different set of 
circumstances there that vary, say, from a poor Appalachian 
area. We have 29 counties in Ohio that are Appalachian, and it 
is a whole different ball game, the same problems, but a 
different way of how to go about solving them.
    Would either of you want to make any other comments?
    Ms. Golden. I guess I would just add that I have enormous 
respect both for what you accomplished in Ohio and for this 
agenda and would be glad to talk with you and then provide any 
additional information that would be useful.
    My sense of our role at the Federal level is first, as you 
have described, we need to make the funding support the goals. 
We need, I think, to provide technical assistance to help 
people who figure out how to collaborate effectively share with 
others who are trying to figure it out, so everybody is not 
starting from scratch. We need to continue to do research. And 
we need to convene people and make sure that those connections 
happen. Finally, I very much would want to hear about concerns 
or problems that you would want me to know about. I would also 
be pleased to provide any additional information. I care about 
this issue very much and I really would like to be available to 
work with you. So thank you for the chance to talk about it.
    Senator Voinovich. I think if you can do that, and the 
other thing is to figure out ways that are reasonable to deal 
with this. In this legislation, one of the things that we are 
suggesting to do is to fund public broadcasting so that they 
can replicate a program we have in Ohio and, I think, one other 
State, where you make available to particularly at-risk parents 
a curriculum--I do not know whether the Department of Education 
would be interested and would like to get your reaction to it--
in coordination with public broadcasting, ``Mr. Rogers'' and 
the other programming they have, so that a stay-at-home mom can 
sit down and spend time with their baby and watch the program 
and afterwards reinforce it with questions and their 
suggestions of things that they do. The materials are very 
impressive. But to replicate that program, and it is very 
reasonable and it also is the kind of thing that could be used 
by a lot of these mom-and-pop child care centers.
    I would be interested in getting an answer to this, is that 
we have found that a lot of our TANF-eligible moms are not 
taking advantage of our child care. We do not know why. Chris 
Dodd was trying to put more money for child care--and I went 
over and said to him that we are not using the money that we 
have. In fact, we have increased the amount of money an 
individual can make so that they can take advantage of child 
care. I think we are at 185 percent of poverty or something 
like that because we are finding the money is not being used.
    So you have a lot of these youngsters who are somewhere, to 
try and perhaps make that available to them, and a website that 
if you have a computer and a printer, you can just print out 
the stuff. Every month, you get your stuff. But it is easy 
things that people can use to help them at home or in these 
mom-and-pop facilities.
    The other thing, again, it deals with quality of care. You 
have your performance standards, but a lot of that has got to 
do with the quality of the people who are at the Head Start 
facilities, and how do you upgrade their skills in a reasonable 
way, and we have this RISE program that we have where we have 
bought these satellites and where the teachers, child care and 
Head Start, are able to access information on how to improve 
their skills. There is even a little part of this where the 
parents can come in and we help encourage them to do some 
things at home.
    It does not cost a lot of money, but there are some 
practical things that I think we can do that help get the job 
done. We also have in our State a video. In fact, it is Rob 
Reiner's video that Johnson put out. I think it is, ``I Am Your 
Child.'' We got the hospitals to pay for it so that when mom is 
there--and, by the way, mom is not in the hospital long enough, 
as far as I am concerned--but the little, short period they are 
there, they get a chance to see the videotape and then they are 
given the videotape to take home with them. Of course, some do 
not have the equipment at home, but a lot of them do, and it is 
like a 30-minute how to take care of your child, what you 
should do, reading and mobiles that you can make. I mean, it is 
kind of elementary stuff, but it is, again, getting information 
to people as early as possible so they can do more for 
themselves. It sounds like simple things, but people----
    Ms. Johnson. Yes, but it is so reassuring to hear your 
commitment and your understanding of what needs to be done.
    Senator Voinovich. It is a lot of stuff, but anyhow, if you 
could take the report that GAO did and look at that, I would 
love for you to come back, and maybe you do not even have to 
come back, maybe you could just in the next couple of months do 
some brainstorming and come back with maybe some changes that 
you could make that might reflect some of the things that have 
been brought up today in your plan. I would be just thrilled to 
see you do it.
    Ms. Johnson. I think what we would like to see is the final 
product that we are talking about, called a joint coordination 
plan, and we will make sure that when that is completed and it 
has been reviewed by lots of people, that you have a copy of 
it.
    Senator Voinovich. And it would be good, because if we are 
going to have this results performance issue, which I think 
really was started by the Vice President, was it not? I think 
that was his baby. If we are going to have it, it would be very 
good that what you are doing there is contained in that report 
so we have one thing that we can look at, because, again, there 
are so many reports. It would be nice to have one place that 
you can look at, how are we doing, and then go back and review 
it to see whether or not we are accomplishing what we want to. 
It is good for us in Congress in oversight, but, frankly, it is 
more important to the people that are really getting the job 
done, like yourselves.
    Ms. Golden. It sounds as though you would also like 
specific reactions to a couple of proposals that you just 
mentioned, right, so we should get copies of those and be able 
to react?
    Senator Voinovich. Yes. There are some areas we have talked 
about today, and you have already mentioned them in yours, but 
I think it would be good to take that GAO report and look at 
what you produced and say, we can do better than this.
    For example, one of the things that we discovered, the 
staff was mentioning that you were doing some coordination that 
is not in those reports. I mean, it should be there. We are 
doing this. There may be some other areas where, after you 
really look at them real carefully together, you can enhance 
those things.
    Ms. Johnson. Let me offer some closing comments. Let me try 
to reassure you----
    Senator Voinovich. I was corrected. The father of the 
Results Act is Senator Roth, who at the time was the senior GOP 
member of this Committee.
    Ms. Johnson. I thought it was Vice President Gore, also.
    Senator Voinovich. Thank you.
    Ms. Johnson. Let me reassure you that we are going to 
continue our efforts to learn what works best, that we are not 
resting on the laurels. We know that, as stewards of public 
funds, we need to constantly ask ourselves, ``Are the monies 
being used wisely? Are they being used to meet the intent and 
purpose of the law? '' That question fuels the research studies 
that we put in place as well as helps us to think about whether 
or not the programs that we are proposing are the best possible 
programs for our clients and our customers.
    We have had a history of working together. We will continue 
with that history, and we will get back to you with a plan that 
outlines, maybe in much more specific ways, how our efforts are 
coordinated to meet the needs of children in this country and 
how many children are still not being served despite the fact 
that there are a number of educational programs out and about 
in this country.
    Senator Voinovich. That would be great, if you could, and I 
am going to send a letter out to Secretary Riley and to 
Secretary Shalala. You made reference to some of the 
interdepartment coordinating----
    Ms. Golden. On disabilities.
    Senator Voinovich. Yes. In the letter, they have already 
got it, but I will send it anyhow because GAO did the study. 
They show these 90 programs dealing with prenatal-to-3 and it 
would be great if you look a little bit more carefully, look at 
your coordination. I am going to suggest to them that maybe 
they look at some of these other areas to see how they could be 
folded into this effort that you are making in terms of the 
overall effort to reach this population, because there are some 
other programs out there that are really important, and the 
issue is, are they just out there doing their thing without 
really being aware of what it is that you are doing?
    Ms. Golden. I think my testimony speaks particularly about 
the linkages to health, because, obviously, for the youngest 
kids--it is true for all kids, but especially when you are 
talking about babies and toddlers and the prenatal years--
health care is incredibly important. We have done a lot of work 
in that area as a particularly important additional piece of 
collaboration.
    Senator Voinovich. Thank you very much for being here.
    Ms. Johnson. Thank you.
    Ms. Golden. Thank you.
    Senator Voinovich. This is hard for me to get accustomed 
to, hearings and there is only one person here, and I voted 
today in proxy on some other committee. Thank you very much.
    The meeting is adjourned.
    [Whereupon, at 11:48 a.m., the Subcommittee adjourned.]
                            A P P E N D I X

                              ----------                              


                 PREPARED STATEMENT OF MARNIE S. SHAUL
    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to begin a series of discussions on how the Congress can use 
the Government Performance and Results Act of 1993 (Results Act) to 
oversee the work of Federal agencies and, in particular, how the 
performance plans required under the act can address the issue of 
multiple early childhood programs.
    Almost $14 billion dollars in Federal funds was available to 
support early childhood activities in fiscal year 1997, yet the large 
number of programs through which such funds are made available creates 
the potential for inefficient service as well as difficulty for those 
trying to access the most appropriate services and funding sources.\1\ 
In fiscal years 1992 and 1993, 11 Federal agencies administered more 
than 90 programs that could fund early childhood services, and we 
determined that education or child care was key to the mission of 34 of 
the programs.\2\ A disadvantaged child could potentially have been 
eligible for as many as 13 programs, although many programs reported 
serving only a portion of their target populations and maintaining long 
waiting lists. We have reported that programs sometimes overlap in the 
services they provide, regardless of how their primary mission is 
described. For example, child care programs designed primarily to meet 
the needs of parents so that they can work or be trained for work may 
also have an educational component. At the same time, programs like 
Head Start that operate as part-day programs to serve the developmental 
needs of children also allow parents to work during the hours in which 
children are in the program.
---------------------------------------------------------------------------
    \1\ Child Care: Federal Funding for Fiscal Year 1997 (GAO/HEHS-98-
70R, Jan. 23, 1998).
    \2\ Early Childhood Programs: Multiple Programs and Overlapping 
Target Groups (GAO/HEHS-95-4FS, Oct. 31, 1994).
---------------------------------------------------------------------------
    The Results Act is intended to improve the management of Federal 
programs by shifting the focus of accountability for Federal programs 
from a preoccupation with staffing and activity levels to outcomes. It 
can provide a new and structured framework for addressing multiple and 
overlapping programs. This should lead to new information on multiple 
programs, including those that cut across agency lines but share common 
goals.
    My testimony today will focus on two main topics: (1) how the 
Results Act can assist in management and congressional oversight, 
especially in areas where there are multiple programs, and (2) how the 
Departments of Education and Health and Human Services (HHS)--which 
together administer more than half of the Federal early childhood 
program funds--addressed early childhood programs in their strategic 
and fiscal year 1999 and 2000 performance plans and the extent to which 
recent plans show progress in coordinating early childhood programs.
    In summary, the Congress can use the Results Act to improve its 
oversight of crosscutting issues because the act requires agencies to 
develop strategic and annual performance plans that clearly specify 
goals, objectives, and measures for their programs. The Office of 
Management and Budget (OMB) has issued guidance saying that for 
crosscutting issues, agencies should describe efforts to coordinate so 
that goals are consistent and program efforts are mutually reinforcing. 
When we looked at the plans of Education and HHS, we found that the 
plans are not, however, living up to their potential as expected from 
the Results Act. More specifically, while the fiscal year 1999 and 2000 
plans to some extent addressed coordination, the departments have not 
yet described in detail how they will coordinate or consolidate their 
efforts. Therefore, the potential for addressing fragmentation and 
duplication has not been realized, and we cannot assess whether the 
agencies are effectively working together on crosscutting issues.
                               BACKGROUND
    Early childhood is a key period of development in a child's life 
and an emphasized age group for which services are likely to have long-
term benefits. Recent research has underscored the need to focus on 
this period to improve children's intellectual development, language 
development, and school readiness.\3\
---------------------------------------------------------------------------
    \3\ ``Brain Research Has Implications for Education'' in the 
Education Commission of the States' State Education Leader, Vol. 15, 
No. 1 (Winter 1997).
---------------------------------------------------------------------------
    Early childhood programs serve children from infancy through age 
5.\4\ The range of services includes education and child development, 
child care, referral for health care or social services, and speech or 
hearing assessment as well as many other kinds of services or 
activities.
---------------------------------------------------------------------------
    \4\ At least half of the child care for infants and toddlers of 
working mothers is done through providers caring for children other 
than their own rather than through organized facilities such as a child 
care center. When we talk about early childhood programs, we are 
discussing only these organized facilities.
---------------------------------------------------------------------------
    Education and HHS's Administration for Children and Families (ACF) 
administer about 60 percent of the Federal early childhood program 
funds. The biggest early childhood programs in fiscal year 1997 for 
these departments were Head Start (approximately $4 billion), 
administered by HHS, and Special Education programs (approximately $1 
billion), administered by Education. Head Start provides education and 
developmental services to young children, and the Special Education-
Preschool Grants and Infants and Families program provides preschool 
education and services to young children with disabilities. Although 
these programs target different populations, use different eligibility 
criteria, and provide a different mix of services to children and 
families, there are many similarities in the services they provide. 
Figure 1 illustrates the Federal agencies responsible for Federal early 
childhood funding.

   Figure 1: Early Childhood Funding Streams by Federal Agency, 1997

              Health and Human Services:     52% ($7,231,572,500)
              Treasury:     26% ($3,535,000,000)
              Agriculture:     11% ($1,530,000,000)
              Education:     9% ($1,201,357,864)
              Military:     2% ($302,062,000)
              Labor:     less than 1% ($1,691,000)
              Appalachian Regional Commission:     less than 1% 
        ($380,102)

        Note: The Treasury Department's portion consists of the Child 
        and Dependent Care Tax Credit and the Exclusion of Employer 
        Provided Child Care. These represent estimates of revenue loss 
        prepared by the Department of the Treasury based upon tax law 
        enacted as of December 31, 1996. The Department of Agriculture 
        portion is the Child and Adult Food Care Program.

    Early childhood programs were included in the list of more than 30 
programs our governmentwide performance and accountability report cited 
to illustrate the problem of fragmentation and program overlap.\5\ 
Virtually all the results that the government strives to achieve 
require the concerted and coordinated efforts of two or more agencies. 
However, mission fragmentation and program overlap are widespread, and 
programs are not always well coordinated. This wastes scarce funds, 
frustrates taxpayers, and limits overall program effectiveness.
---------------------------------------------------------------------------
    \5\ Government Management: Addressing High Risks and Improving 
Performance and Accountability (GAO/T-OCG-99-23, Feb. 10, 1999).
---------------------------------------------------------------------------
 THE RESULTS ACT HELPS THE CONGRESS AND AGENCIES OVERSEE PROGRAMS AND 
                      ADDRESS CROSSCUTTING ISSUES
    The Results Act is intended to improve the management of Federal 
programs by shifting the focus of decision-making and accountability 
from activities such as giving some number of grants to the results of 
Federal programs. The act requires executive agencies, in consultation 
with the Congress and other stakeholders, to prepare strategic plans 
that include mission statements and goals. Each strategic plan covers a 
period of at least 5 years forward from the fiscal year in which the 
plan is submitted. It must include the following six key elements:

        <bullet> La comprehensive mission statement covering the major 
        functions and operations of the agency,
        <bullet> La description of general goals and objectives for the 
        major functions and operations of the agency,
        <bullet> La discussion of how these goals and objectives will 
        be achieved and the resources that will be needed,
        <bullet> La description of the relationship between performance 
        goals in the annual performance plan and general goals and 
        objectives in the strategic plan,
        <bullet> La discussion of key factors external to the agency 
        that could affect significantly the achievement of the general 
        goals and objectives, and
        <bullet> La description of program evaluations used to develop 
        the plan and a schedule for future evaluations.

    Agencies must also prepare annual performance plans that establish 
the connections between the long-term strategic goals outlined in the 
strategic plans and the day-to-day activities of program managers and 
staff. While the Results Act does not require a specific format for the 
annual performance plans, it requires a plan to,

        <bullet> Lidentify annual goals and measures covering each of 
        its program activities,
        <bullet> Ldiscuss the strategies and resources needed to 
        achieve annual goals, and
        <bullet> Ldescribe the means the agency will use to verify and 
        validate its performance data.

    The act also requires that each agency report annually on the 
extent to which it is meeting its annual performance goals and the 
actions needed to achieve or modify goals that have not been met. The 
first report, due by March 31, 2000, will describe the agencies' fiscal 
year 1999 performance.
    The Results Act provides a valuable tool to address mission 
fragmentation and program overlap. The act's emphasis on results 
implies that Federal programs contributing to the same or similar 
outcomes are expected to be closely coordinated, consolidated, or 
streamlined, as appropriate, to ensure that goals are consistent and 
that program efforts are mutually reinforcing.\6\ As noted in OMB 
guidance and in our recent reports on the act, agencies should identify 
multiple programs within or outside the agency that contribute to the 
same or similar goals and describe their efforts to coordinate. Just as 
importantly, the Results Act's requirement that agencies define their 
mission and desired outcomes, measure performance, and use performance 
information provides multiple opportunities for the Congress to 
intervene in ways that could address mission fragmentation.
---------------------------------------------------------------------------
    \6\ Managing for Results: Using the Results Act to Address Mission 
Fragmentation and Program Overlap (GAO/AIMD-97-146, Aug. 29, 1997).

        <bullet> LAs missions and desired outcomes are determined, 
        instances of fragmentation and overlap can be identified and 
        appropriate responses can be defined. For example, by 
        emphasizing the intended outcomes of related Federal programs, 
        the plans might allow identification of legislative changes 
        needed to clarify congressional intent and expectations or to 
        address changing conditions.
        <bullet> LAs performance measures are developed, the extent to 
        which agency goals are complementary and the need for common 
        performance measures to allow for crossagency evaluations can 
        be considered. For example, common measures of outcomes from 
        job training programs could permit comparisons of programs' 
        results and the tools used to achieve those results.
        <bullet> LAs continued budget pressures prompt decisionmakers 
        to weigh trade-offs inherent in resource allocation and 
        restructuring decisions, the Results Act can provide the 
        framework to integrate and compare the performance of related 
        programs to better inform choices among competing budgetary 
        claims.

    The outcome of using the Results Act in these ways might be 
consolidation that would reduce the number of multiple programs, but it 
might also be a streamlining of program delivery or improved 
coordination among existing programs. Where multiple programs remain, 
coordination and streamlining would be especially important. Multiple 
programs might be appropriate because a certain amount of redundancy in 
providing services and targeting recipients is understandable and can 
be beneficial if it occurs by design as part of a management strategy. 
Such a strategy might be chosen, for example, because it fosters 
competition, provides better service delivery to customer groups, or 
provides emergency backup.
TWO AGENCIES' PLANS ADDRESS EARLY CHILDHOOD PROGRAMS BUT LACK IMPORTANT 
                         DETAIL ON COORDINATION
    Education and HHS's ACF--the two agencies that are responsible for 
the majority of early childhood program funds--addressed early 
childhood programs in their strategic and 1999 performance plans. 
Although both agencies' plans generally addressed the required elements 
for strategic and performance plans, Education's plans provided more 
detailed information about performance measures and coordination 
strategies. The agencies in their 2000 plans similarly addressed the 
required elements for performance plans. However, strategies and 
activities that relate to coordination were not well defined. Although 
agencies state that some coordination occurs, they have not yet fully 
described how they will coordinate their efforts. The Education plan 
provided a more detailed description of coordination strategies and 
activities for early childhood programs than the ACF plan, including 
some performance measures that may cut across programs. The ACF plan 
described in general terms the agency's plans to coordinate with 
external and internal programs dealing with early childhood goals. Yet 
the information presented in the plans did not provide the level of 
detail, definition, and identification of complementary measures that 
would facilitate comparisons of early childhood programs.
Department of Education's Plans
    Education's strategic plan for 1998-2002 highlighted early 
childhood programs as a major area of departmental concern. In 
establishing the importance of early childhood education, the strategic 
plan said that

        <bullet> Lthe extent of early learning opportunities for 
        children has consequences for long-term success;
        <bullet> Lresearch on early brain development reveals that if 
        some learning experiences are not introduced to children at an 
        early age, the children will find learning more difficult 
        later;
        <bullet> Lchildren who enter school ready to learn are more 
        likely to achieve high standards than children who are 
        inadequately prepared; and
        <bullet> Lhigh-quality preschool and child care are integral in 
        preparing children adequately for school.

    Early childhood issues were discussed in the plan's goal to ``Build 
a solid foundation for learning for all children'' and in one objective 
and two performance indicators (see table 1).

            Table 1: Department of Education's Strategic Plan Framework for Early Childhood Programs
----------------------------------------------------------------------------------------------------------------
                  Goal                                     Objective and performance indicators
----------------------------------------------------------------------------------------------------------------
Build a solid foundation for learning    All children enter school ready to learn.
 for all children.                         <bullet> The disparity in preschool participation rates between
                                          children of high-income families and children of low-income families
                                          will become increasingly smaller.
                                           <bullet> The percentage of 3- to 5-year-olds whose parents read to
                                          them or tell them stories regularly will continuously increase.
----------------------------------------------------------------------------------------------------------------

    The 1999 performance plan, Education's first performance plan, 
followed from the strategic plan. It clearly identified programs 
contributing to Education's early childhood objective and set 
individual performance goals for each of its programs. Paralleling the 
strategic plan, the performance plan specified the core strategies 
Education intended to use to achieve its early childhood goal and 
objective. Among these were interagency coordination, particularly with 
HHS's Head Start program. According to Education's strategic plan, this 
coordination was intended to ensure that children's needs are met and 
that the burden on families and schools working with multiple providers 
is reduced. The performance plan also said that Education would work 
with HHS and other organizations to incorporate some common indicators 
of young children's school readiness into their programs. It would also 
work with HHS more closely to align indicators of progress and quality 
between HHS's Head Start program and its Even Start Family Literacy 
program--which has as part of its goal the integration of early 
childhood education, adult literacy or adult basic education, and 
parenting education.
    In our examination of Education's 1999 performance plan, we 
reported that one of the plan's strengths was its recognition that 
coordination with other Federal agencies enables it to better serve 
program participants and reduce inefficiencies in service delivery.\7\ 
We said that although this first plan included a great deal of valuable 
information, it did not provide sufficient details, such as

    \7\ The Results Act: Observations on the Department of Education's 
Fiscal Year 1999 Annual Performance Plan (GAO/HEHS-98-172R, June 8, 
1998).(1) a more complete picture of intended performance across the 
department, (2) a fuller portrayal of how its strategies and resources 
would help achieve the plan's performance goals, and(3) better 
identification of significant data limitations and their implications 
for assessing the achievement of performance goals.
---------------------------------------------------------------------------
    These observations apply to the early childhood programs as well. 
Without this additional detail, policymakers are limited in their 
ability to make decisions about programs and resource allocation within 
the department and across agencies.Education's 2000 performance plan 
continues to demonstrate the department's commitment to the 
coordination of its early childhood programs. Like the 1999 performance 
plan, the sections on early childhood programs clearly identified 
programs contributing to its childhood program objectives. It also 
contained new material highlighting the importance of the coordination 
of early childhood programs as a crosscutting issue, particularly with 
HHS. To facilitate collaboration, the department added a strategy to 
work with the states to encourage interagency agreements at the state 
level. It also added using the Federal Interagency Coordinating Council 
to coordinate strategies for children with disabilities and their 
families.\8\ At the same time, the department still needs to better 
define its objectives and performance measures for crosscutting issues. 
Unless the purpose of coordination activities is clearly defined and 
results in measurable outcomes, it will be difficult to make progress 
in the coordination of programs across agencies.
---------------------------------------------------------------------------
    \8\ ACF has its own performance plan, which is referred to in the 
HHS performance plan.
---------------------------------------------------------------------------
ACF's Plan
    In its 1999 performance plan, ACF recognized the importance of 
investment in sound growth and development for children, particularly 
those in low-income families. It said that programs such as Early Head 
Start, Head Start, and quality child care programs are essential to 
good health, early development, and school readiness. The ACF plan 
reflected early childhood programs in 2 strategic goals--increase 
economic independence and productivity for families, and improve 
healthy development, safety, and well-being of children and youth--and 
3 objectives (see table 2).

                               Table 2: ACF Framework for Early Childhood Programs
----------------------------------------------------------------------------------------------------------------
                 Goal                                Objectives and selected performance indicators
----------------------------------------------------------------------------------------------------------------
Increase economic independence and     Increase affordable child care.
 productivity for families.              <bullet> Increase the number of children receiving subsidized child
                                        care from the 1997 baseline average of 1.25 million served per month.

Improve healthy development, safety,   Increase the quality of child care to promote childhood development.
 and well-being of children and          <bullet> Children demonstrate emergent literacy, numeracy, and language
 youth.                                 skills.
                                         <bullet> Children demonstrate improved general cognitive skills.
                                         <bullet> Children demonstrate improved gross and fine motor skills.

                                       Improve the health status of children.
                                         <bullet> Increase from 75% to 81% the percentage of Head Start children
                                        who receive necessary treatment for emotional or behavioral problems
                                        after being identified as needing such treatment.
----------------------------------------------------------------------------------------------------------------

    The ACF plan, however, did not always give a clear picture of 
intended performance of its programs and often failed to identify the 
strategies the agency would use to achieve its performance goals. ACF 
programs that contribute to each early childhood objective were 
identified, and several of these programs had individual performance 
goals. However, without a clear picture of intended program goals and 
performance measures for crosscutting early childhood programs, it will 
be difficult to compare programs across agencies and assess the Federal 
Government's overall efficacy in fostering early childhood development.
    In our preliminary review of ACF's plan for fiscal year 2000, we 
found some mention of the need to encourage collaboration in addressing 
ACF's crosscutting program goals. It also acknowledged and discussed 
the key roles of states and localities in administering ACF's programs 
and achieving performance goals. However, internal and external 
coordination issues as they relate to early childhood programs were not 
fully addressed. For example, external coordination was discussed, but 
ACF's discussion of coordination, consultation, and partnerships 
primarily remained a general description of what has happened in the 
past. For example, the plan stated as one of its strategic objectives 
to ``increase the quality of childcare to promote childhood 
development.'' To support this objective, ACF identified the need to 
coordinate with the Department of Education concerning the Head Start 
program along with other internal and external stakeholders in this 
area. However, it did not define how this coordination will be 
accomplished or the means by which the crosscutting results will be 
measured.
    Agency officials are able to describe numerous activities that 
demonstrate collaboration within the agency and with Education. The 
absence of that discussion in the plan, however, limits the value the 
Results Act could have to both improving agency management and 
assisting the Congress in its oversight role.
    Progress in coordinating crosscutting programs is still in its 
infancy, although agencies are recognizing its importance. Agency 
performance plans provide the building blocks for recognizing 
crosscutting efforts. Because of the iterative nature of performance-
based management, however, more than one cycle of performance plans 
will probably be required in the difficult process of resolving program 
fragmentation and overlap.
    Mr. Chairman, this concludes my prepared statement. We would be 
happy to answer any questions that you or Members of the Subcommittee 
may have.

                          Related GAO Products

    Government Management: Addressing High Risks and Improving 
Performance and Accountability (GAO/T-OCG-99-23, Feb. 10, 1999).

    The Results Act: An Evaluator's Guide to Assessing Agency Annual 
Performance Plans (GAO/GGD-10.1.20, Apr. 1, 1998).

    Managing for Results: Observations on Agencies' Strategic Plans 
(GAO/T-GGD-98-66, Feb. 12, 1998).

    Child Care: Federal Funding for Fiscal Year 1997 (GAO/HEHS-98-70R, 
Jan. 23, 1998).

    Federal Education Funding: Multiple Programs and Lack of Data Raise 
Efficiency and Effectiveness Concerns (GAO/HEHS-98-77R, Jan. 21, 1998).

    Federal Education Funding: Multiple Programs and Lack of Data Raise 
Efficiency and Effectiveness Concerns (GAO/T-HEHS-98-46, Nov. 6, 1997).

    At-Risk and Delinquent Youth: Multiple Programs Lack Coordinated 
Federal Effort (GAO/T-HEHS-98-38, Nov. 5, 1997).

    Head Start: Challenges Faced in Demonstrating Program Results and 
Responding to Societal Changes (GAO/T-HEHS-98-183, June 9, 1998).

    The Results Act: Observations on the Department of Education's 
Fiscal Year 1999 Annual Performance Plan (GAO/HEHS-98-172R, June 8, 
1998).

    Managing for Results: Agencies' Annual Performance Plans Can Help 
Address Strategic Planning Challenges (GAO/GGD-98-44, Jan. 30, 1998).

    Managing for Results: Using the Results Act to Address Mission 
Fragmentation and Program Overlap (GAO/AIMD-97-146, Aug. 29, 1997).

    The Results Act: Observations on the Department of Education's June 
1997 Draft Strategic Plan (GAO/HEHS-97-176R, July 18, 1997).

    The Government Performance and Results Act: 1997 Governmentwide 
Implementation Will Be Uneven (GAO/GGD-97-109, June 2, 1997).

    Early Childhood Programs: Multiple Programs and Overlapping Target 
Groups (GAO/HEHS-95-4FS, Oct. 31, 1994).

                               __________
                 PREPARED STATEMENT OF OLIVIA A. GOLDEN
    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to appear before you today to discuss the coordination of 
early childhood programs. Mr. Chairman, I know that early childhood 
education has been a top priority of yours for many years, and I 
particularly welcome the chance to discuss these important issues with 
you because of my deep respect for your accomplishments on behalf of 
young children during your tenure as Governor of Ohio.
    As you know, early childhood education has also been a high 
priority for the administration. In partnership with the Congress, the 
administration has provided leadership in three different and 
complementary ways: By expanding public investment to serve more needy 
children and families, by stronger efforts to improve program quality 
and accountability, and by creative work to support partnerships across 
different early childhood programs.
    There is a tremendous need for public investment to help low income 
families with child care expenses and to provide high quality, 
comprehensive early childhood programs to help children enter school 
ready to learn. Data from 1997 showed that less than 15 percent of the 
10 million children who qualify for the Child Care and Development 
Block Grant were obtaining a subsidy and Head Start still serves less 
than 50 percent of low-income preschool children. Accordingly, 
President Clinton has placed a high priority on steady increases in 
early childhood funding, leading to doubling the level of funding for 
child care, expansion of Head Start to serve 1 million children 
annually by 2002, and establishing the Early Head Start program which 
has grown to more than 500 community-based programs for children under 
the age of three. The President has continued this commitment to early 
childhood programs in his FY 2000 budget proposal by requesting an 
historic increase of $607 million for Head Start expansion and quality 
improvements, as well as $19.3 billion over 5 years for critically 
important investments in child care, including a new Early Learning 
Fund to provide States and communities additional resources to enhance 
the quality of early care and education services for our youngest and 
most vulnerable children.
    We are encouraged to see similar efforts by States and local 
communities to invest in these same priorities. Since 1987, State 
funding for pre-kindergarten programs has increased from $180 million 
to more than $1.5 billion and State funding to expand Head Start 
services has increased from less than $14 million to more than $154 
million. State funding of child care has also grown significantly. In 
order to draw down the full amount of funds available under the Child 
Care and Development Block Grant, States in FY 1998 appropriated $1.6 
billion in maintenance of effort and matching funds, and a number of 
States report additional appropriations of State resources. Recent 
initiatives such as the commitment of $40 million over 3 years to 
expand and improve early childhood and health programs in Cuyahoga 
County, Ohio are further exciting evidence of continuing public 
commitment to support working families with young children and help all 
children enter school ready to learn.
    The second component of Federal leadership in early childhood 
programs is to improve program quality and hold programs accountable 
for results. Working hand in hand with the Congress, we have developed 
new performance standards and program monitoring procedures for Head 
Start and adopted a tougher stance in enforcing these standards, 
leading to replacement of more than 125 local programs. At the same 
time, we have made investments to improve Head Start staff training and 
compensation and to support other local quality improvement efforts. We 
are also pleased that last year the Congress made a down payment 
towards the President's child care initiative by providing an increase 
of $183 million for much-needed quality improvements, research and 
evaluation efforts.
    Another critically important aspect of our leadership to enhance 
early childhood quality is the development of outcome standards and 
measures for Head Start and child care programs. The Government 
Performance and Results Act (GPRA) set in motion the first national 
effort to identify specific outcomes for federally-funded early 
childhood programs, and a system to measure and track progress on these 
performance measures. For example, we have made rapid progress in 
implementing performance measures for Head Start programs, drawing on 
the work of the National Education Goals Panel and extensive 
consultation with early childhood experts, including the Department of 
Education. We created a comprehensive, cutting-edge system of 24 
outcome measures to track progress towards our overall goal of 
improving the healthy development and learning readiness of young 
children.
    Next, we set up our Family and Child Experiences Survey (FACES) to 
assess performance on these measures in a nationally-representative 
sample of local Head Start agencies. Initial findings from the FACES 
survey are already being used to pinpoint strengths and areas for 
needed improvements in Head Start, giving us a powerful new tool to 
continue to improve the effectiveness of more than 1,400 local 
programs. For example, we can document that the quality of teaching in 
Head Start is good, that children are making progress in key learning 
areas such as vocabulary growth, and that parents are heavily involved 
in and highly satisfied with Head Start. FACES also allows us to track 
specific indicators such as the fact that two-thirds of Head Start 
parents read to their children at least three times per week, and the 
finding that Head Start programs could be doing more to increase the 
proportions of parents that read to their children every day. We are 
convinced that our success in implementing GPRA will form the 
foundation for continued progress in improving program quality and 
outcomes, as well as serve as a model for State and local efforts to 
upgrade all forms of early childhood programs.
    In addition to these achievements in expanding and improving child 
care and Head Start programs, I am pleased to have the opportunity to 
highlight for the Subcommittee the many things that we are doing to 
improve coordination so that the full spectrum of early childhood 
programs work together for children. As we work to administer each 
program authorized by Congress, we seek to work with State, local, and 
community partners to make it easier for them to bring programs 
together and to use resources from different Federal and State agencies 
to serve children and their parents with high quality, safe, affordable 
early care and education.
    I will highlight four key areas:

        <bullet> LEnsuring that funding strategies provide incentives 
        for collaboration;
        <bullet> LEnsuring that Federal policy supports collaboration 
        and correcting misinterpretations of Federal rules or 
        regulations that may be barriers to partnerships;
        <bullet> LProviding technical assistance and sharing successful 
        models of coordination; and
        <bullet> LConvening Federal, State and local partners to 
        facilitate collaboration.
Ensuring that Funding Strategies Provide Incentives for Collaboration
    For the past 3 years, the Head Start Bureau placed a priority on 
partnership strategies in awarding more than $340 million in program 
expansion funding. This policy led to providing full-day/full-year 
services to more than 50,000 additional children in partnership 
arrangements with child care and pre-kindergarten agencies and 
resources. The Head Start and Child Care Bureaus are working together 
to help States and communities find effective ways to combine Head 
Start, child care and pre-kindergarten program funds to provide high 
quality, full-day/full-year early childhood programs.
    For instance, Child Focus, Inc. in Clermont County, Ohio uses 
resources from State and Federal Head Start, child care, Even Start, 
mental health, alcohol and substance abuse to offer families a wide 
array of coordinated services, including early childhood education, 
family literacy, health care, substance abuse and violence prevention 
in a single center. The agency also provides on-site training for Head 
Start and child care staff via a partnership with the University of 
Cincinnati and collaborates with local child care centers and family 
child care homes to serve additional children and families.
Supporting Collaboration Through Federal Policies
    Our second key strategy is working to ensure that Federal policies 
support collaboration and to identify and remove obstacles to 
collaboration that are based on misinterpretations of Federal rules and 
regulations. For instance, the Child Care Bureau provided guidance to 
prevent unwarranted problems in auditing agencies that use funding from 
different Federal programs, and issued a memorandum clarifying the 
flexibility available to States in addressing issues of defining 
eligibility across early childhood programs, including subsidized child 
care. In a similar manner, the Head Start Bureau has issued 
clarifications of policies on collecting fees, sharing equipment and 
supplies, and recruiting and enrolling children on a year-around basis 
to make it easier to partner with child care and pre-kindergarten 
providers.
    We are also working in close partnerships with the 13 States that 
provide funding to Head Start programs. In States such as Ohio, 
Minnesota, and Oregon, Federal and State officials are working together 
in funding, monitoring and providing training and technical assistance 
to local programs. These leadership efforts support new emerging 
partnerships such as the City of Chicago's innovative strategy to link 
more than 150 family child care providers with Head Start resources to 
provide full-day, full-year Head Start and to enhance the quality of 
services in family child care homes across the city.
Providing Technical Assistance to Remove Barriers to Collaboration and 
        Sharing Successful Models and Strategies
    Another indicator of our sustained commitment to promoting early 
childhood collaboration is a new initiative by the Head Start and Child 
Care Bureaus to jointly fund and manage a national training and 
technical assistance project called ``Quality in Linking Together: 
Early Education Partnerships'' (QUILT). The QUILT will work to engage 
States, communities and Indian tribes in developing a strategic 
approach to fostering early education partnerships to maximize Federal, 
State and local early childhood resources. The QUILT will disseminate 
information on successful partnership models, and provide on-site 
technical assistance for child care, Head Start, pre-kindergarten, and 
other early education providers. The QUILT will draw on the examples 
and lessons of a wide array of emerging collaborative models including 
a new effort in Denver, Colorado where Head Start and child care 
providers have joined with the United Way and a number of public 
agencies to launch the Ready to Succeed Partnership. This initiative is 
working to improve the quality of care through toy and resource lending 
libraries, parent outreach workers, teacher scholarships, professional 
development opportunities, and linkages to health care providers.
    We are also supporting additional partnership efforts in training 
and technical assistance to assist Head Start and child care agencies 
in collaborating with Department of Education programs such as the Even 
Start family literacy effort and programs for infants, toddlers, and 
young children with disabilities. For example, in a public-private 
partnership with the Conrad Hilton Foundation, we are contributing to a 
$15 million initiative to train teams of Early Head Start, early 
intervention program providers, parents, and other community agencies 
to improve the capacity of Early Head Start programs to serve infants 
and toddlers with disabilities. In addition, the Head Start Bureau is 
launching a new $15 million technical assistance project targeted to 
enhancing family literacy services and partnerships between Even Start, 
Head Start and other early childhood programs.
    ACF early childhood programs are also working together at the State 
and local levels to share training resources and develop more effective 
and inclusive career development systems for teachers of young 
children. States such as Kansas and Ohio have created innovative 
distance learning and interactive television systems to offer training 
to child care, public school and Head Start teachers. Local agencies 
such as the Macon Program for Progress Head Start in North Carolina 
have developed regional training sites to offer model demonstration 
classrooms, on-site college courses, training for the Child Development 
Associate credential and a variety of other services to staff from all 
community programs, using funding from a variety of State, Federal, and 
higher education institutions.
Convening Federal, State and Local Partners to Facilitate Collaboration
    Our fourth key strategy in building early childhood collaboration 
is to sponsor forums and initiatives to bring together early childhood 
and child care leaders and other partners to solve common problems and 
plan for the future. Our Head Start State Collaboration Office 
initiative links Head Start with State programs in child care, 
education, welfare, disabilities, homeless services, community service, 
family literacy and health. Maine's Collaboration Office took the lead 
in creating a unified State proposal to use Head Start expansion 
funding in partnership with child care centers. In addition, it 
convened a coalition of Head Start and child care organizations in the 
Alliance for Children's Care, Education and Supportive Services 
(ACCESS). With funding from the Head Start Bureau, ACCESS created 11 
regional early childhood planning groups to document community needs 
and the current capacity of early childhood and child care programs and 
agencies across the State. This effort led to a comprehensive, State-
wide data base with enrollment, eligibility, and waiting list 
information for all child care, family child care, Head Start and 
preschool programs and the numbers of children who are eligible but 
unserved in each region of the State. This data base and the convening 
process has led to a series of legislative proposals to expand funding 
for early childhood services in Maine.
    In both Head Start and Child Care, collaboration efforts extend to 
linking with other key services for young children and their families, 
such as medical, dental and mental health care, nutrition, services to 
children with disabilities, child support, adult and family literacy, 
and employment training. These comprehensive services are crucial in 
helping families progress towards self-sufficiency and in helping 
parents provide a better future for their young children. For instance, 
the Healthy Child Care America Campaign, a partnership with the 
Maternal and Child Health Bureau, supports collaborative efforts of 
health professionals, child care providers, and families to improve the 
health and safety of children in child care settings. In Pennsylvania, 
the Healthy Child Care project works with child care and Head Start 
programs to establish linkages with health professionals, and provide 
telephone advice to staff members about health and safety issues.
    Head Start, Child Care Bureau and other HHS staff are also active 
members of the Department of Education's Federal Interagency 
Coordinating Council to coordinate programs to serve young children 
with disabilities. These efforts reflect the long history and 
considerable current efforts to use community-based Head Start and 
child care programs as inclusive environments for young children with 
special needs. ACF is also actively involved with ED in joint funding 
of new national data bases on early childhood experiences and programs, 
and coordinating efforts to use common outcome measures in studies 
sponsored by a variety of Federal agencies. For example, ACF is 
supplementing funding for the National Center for Education Statistics' 
Early Childhood Longitudinal Study Birth Cohort to supplement the 
study's ability to support analyses of Head Start enrollees and 
eligible children who are not enrolled.
    Community, State and Federal efforts are paying off in partnerships 
that truly make a difference for children and families. The story of 
one family served by the Drueding Center/Project Rainbow in 
Philadelphia demonstrates the power of collaboration. Thelma, a 
recovering drug-addicted mother of five children, was separated from 
her family and became homeless. Two of her children were physically and 
cognitively delayed. Through the Drueding Center, a collaborative 
program receiving Federal and private funding, Thelma received 
temporary housing with the use of HUD funds, a child care subsidy 
through the Child Care and Development Block Grant, as well as job 
training to help her become employed. One of her children enrolled in a 
residential treatment center, and another participates in the Project 
Rainbow Head Start/child care collaborative program. With this array of 
support from Drueding and her own hard work, Thelma is now reunited 
with her children. She is a full-time student enrolled in Temple 
University, and is now supporting the Drueding Center as a member of 
it's Board of Directors and in fund-raising activities for its many 
programs.
Future Directions
    Recognizing the positive impact that coordinated early childhood 
programs have on States, communities, and most importantly, children 
and families, ACF seeks to build on and expand our existing 
coordination efforts in three ways. First, we will support 
collaboration and the use of outcome measurement around early childhood 
programs through the Early Learning Fund, which is part of the 
President's Fiscal Year 2000 budget. The Early Learning Fund will, for 
the first time, specifically devote funding to communities to enhance 
the quality of care for children, with a focus on promoting school 
readiness for children through age five. The dollars will be 
distributed through States and the services under the Fund will be 
delivered at the local level to enable communities and parents to take 
action based on their assessment of what is needed and what will work 
best. We believe that this flexible, results-focused funding will 
assist States and communities in maximizing existing early childhood 
resources, strengthening partnerships and improving quality. Second, 
ACF will be convening State administrators of child care and pre-
kindergarten programs and Head Start leaders this fall to explore 
collaborative approaches to program funding, monitoring, performance 
outcomes, professional development and technical assistance. Third, we 
will begin a new effort with the Department of Education to review 
opportunities for further coordination in the areas of performance 
indicators, funding, service strategies and research.
    Thank you for the opportunity to appear before the Subcommittee 
today. I would be pleased to answer any questions you may have.

                               __________
                  PREPARED STATEMENT OF JUDITH JOHNSON
    Good morning, Mr. Chairman. My name is Judith Johnson, and I am 
currently serving as Acting Assistant Secretary for Elementary and 
Secondary Education. Until 2 years ago, I was a career educator in New 
York State, where I worked in urban and suburban school districts as a 
teacher, guidance counselor, principal, and district administrator.
    It is an honor to have the opportunity to testify before this 
Subcommittee with Assistant Secretary Golden. Over the years, the 
Department has worked in close collaboration with the Department of 
Health and Human Services (HHS) to help States and local communities 
provide high-quality early childhood education.
    In his State of Education Address this February in California, 
Secretary Riley identified the early years of childhood as the period 
in which ``we have the most potential to make the greatest gains.'' The 
latest research clearly demonstrates that children's success in school 
is highly dependent on the quality of the learning environment they 
experience in childhood. According to a study conducted by the National 
Institute for Child Health and Human Development (NICHD) in 1998, the 
quality of the language and literacy environments in early childhood 
programs and the development of specific linguistic skills predict 
later language development, reading success, and other academic 
outcomes for children.
    School districts across the country are beginning to offer children 
from poor families early childhood education before they enter 
kindergarten. For example, the Charlotte-Mecklenberg school district in 
North Carolina is using approximately 85 percent of its Title I funding 
to provide early childhood education for at-risk 3- and 4-year old 
children within the public schools and in center-based programs. Many 
of these classrooms operate in collaboration with Head Start. 
Preliminary evaluation data on this program, known as ``Bright 
Beginnings,'' are promising. Children participating in this Charlotte-
Mecklenberg early childhood education program enter kindergarten better 
prepared than their at-risk peers who do not participate in the 
program.
    Many States have effectively pooled Federal, State, and local 
dollars to help ensure that all children enter school ready to learn. 
Illinois has been providing State funding since 1985 for 3-, 4- and 5-
year olds who are at risk for school failure. School districts are 
responsible for determining if a student is at risk, while the Illinois 
State Board of Education is responsible for administering the program. 
In fiscal year 1998, this program served over 50,000 children. In 1990, 
the Ohio legislature enacted a landmark early childhood education 
program. This legislation provides many 3- and 4-year olds from low-
income families in Ohio with access to a high-quality preschool 
education in either a public preschool, a Head Start class, or a child 
care program. A recent survey of State-funded pre-school initiatives, 
conducted by Yale University, found that Ohio, along with Georgia, 
Iowa, Kentucky, Oregon and Washington, is one of six States doing an 
outstanding job providing preschool education.
    The Department, in partnership with other Federal agencies such as 
HHS, must act as a catalyst to support innovative State programs aimed 
at increasing opportunity for students to experience high-quality early 
childhood education. The Department's 6-year strategic plan and fiscal 
year 2000 Annual Plan both recognize the important role that the early 
childhood experience plays in future school and life success. Our plan 
contains coordination strategies to maximize Federal services and also 
identifies the goal of ensuring that ``all children enter school ready 
to learn.'' We recognize that interagency coordination is vital in 
providing high-quality early childhood services that complement, rather 
than duplicate, each other.
    The Department shows its commitment to the education of young 
children in its strategic plan, which includes a school readiness 
objective, as well as strategies to improve our services to young 
children before they enter school. Our 2000 Annual Plan specifically 
lays out performance measures and strategies for interagency 
coordination in the area of early childhood, as recognized by the 
General Accounting Office in its assessment of our plan. In order to 
help States and local communities better provide early childhood 
education, improved coordination is needed at the Federal level across 
agencies.
    Although more can be done with our Federal partners, the Department 
has made some initial progress in the area of coordination. I would 
like to describe some of our accomplishments to date. I will discuss 
coordination activities in three general areas: (1) coordinating 
research; (2) coordinating services; and (3) coordinating performance 
measurement.
                         Coordinating Research
    The Department has created the Early Childhood Research Working 
Group (ECRWG), coordinated by the Office of Educational Research and 
Improvement's (OERI) National Institute on Early Childhood Development 
and Education, known as the Early Childhood Institute (ECI). The 
Working Group links ECI with other offices in the Department and 
approximately eight other Federal departments that support research, 
data collection, or services for young children and their families. The 
chairperson of the Working Group is a staff member from the Office of 
the Assistant Secretary for Planning and Evaluation (ASPE) in HHS, 
while the day-to-day activities of the Working Group are conducted by 
staff in the Early Childhood Institute. The purposes of the Working 
Group are to allow agency representatives to share information, receive 
professional development, and begin discussions about a collaborative 
early childhood research agenda.
    The Working Group consists of approximately 100 members 
representing 30 Federal agencies and meets at least twice a calendar 
year. The Working Group agenda is developed jointly by the Department 
and HHS. Frequently, the Departments of Defense, Agriculture, and 
Justice take part in the planning. The topic of the group's July 1998 
meeting was ``the Children's Research Initiative.'' Duane Alexander, 
M.D., Director of NICHD at HHS, presented the administration's plan for 
research related to young children's health, safety, learning, and 
development. The group discussed child care studies, research related 
to the role of fathers in young children's development, and a research 
competition focusing on improving how young children are taught 
mathematics and reading.
    Meetings of the Working Group have fostered information sharing and 
started discussions leading to interagency agreements for research. 
These kinds of agreements bring together the interdisciplinary 
expertise needed to design effective, comprehensive strategies that 
will improve young children's chances for success. For example, two HHS 
offices, NICHD and ASPE, collaborated with ECI on a soon-to-be-released 
report, ``Young Children's Education, Health, and Development: The 
Profile and Synthesis Project.'' This report focuses on selected, 
current, large-scale, federally and privately funded initiatives 
devoted to improving young children's education, health, and 
development, as well as their parents' ability to support their growth. 
This study will give us information about program efficacy and 
implications of the findings for practice.
    Another agreement that evolved from discussions begun at Working 
Group meetings is between ECI and the HHS Substance and Mental Health 
Services Administration. This activity is a joint investigation of 
intensive, comprehensive mental health interventions and whether or not 
they improve the school readiness of young children whose parents have 
chronic substance abuse or mental health problems.
    A second interagency committee, the Federal Interagency 
Coordinating Council (FICC), was established in 1991 by Congress to 
coordinate and mobilize all available resources to ensure the effective 
coordination of Federal early intervention and preschool programs and 
policies for children with disabilities and their families. Comprised 
of representatives from 19 Federal offices in the Department, HHS, 
Agriculture, Interior, Defense, and the Social Security Administration, 
as well as parents and professionals from State agencies and other 
related organizations, the FICC meets quarterly and has five active 
standing committees and various task forces and working groups.
    The IDEA Amendments of 1997 broadened the functions of the FICC to 
include advising and assisting the Secretaries of the agencies 
mentioned above (in addition to the Secretary of Education) in the 
performance of their responsibilities related to serving children with 
disabilities from birth through age five. The first report in this area 
is presently being prepared, listing the accomplishments and activities 
of the FICC and laying out recommendations for the future. The FICC has 
a strategic plan that guides its work and is in the process of 
implementing a new interagency agreement to replace a memorandum of 
understanding signed in 1992. The Assistant Secretary for Special 
Education and Rehabilitative Services chairs the FICC and provides 
staff support; however, all agencies are asked to contribute resources 
and expertise to its work.
    The Department's Office of Special Education Programs, ECI, and 
NICHD in HHS jointly sponsored the Preventing Reading Difficulties in 
Young Children report of the National Research Council (NRC). This 
report was the culmination of a 2-year effort by a committee of 
nationally recognized experts in reading, child development, 
linguistics, and psychology. The study synthesizes the most effective, 
current research on the learning and teaching of reading. A significant 
section of this report explores how literacy can be fostered from birth 
through kindergarten and the primary grades, with recommendations on 
effective professional development and instruction for young children. 
The NRC also produced a customer-friendly guide for parents, teachers, 
and child care providers, entitled Starting Out Right, that describes 
how to promote children's reading success and prevent reading 
difficulties.
    Another example of a major collaborative effort is the Interagency 
Education Research Initiative (IERI), co-sponsored by OERI, NICHD, and 
the National Science Foundation. The IERI is a 5-year collaborative 
research effort that supports large-scale studies on the best 
approaches to raising student achievement. The purposes of the program 
are: (1) to foster creative research on basic learning, teaching, and 
organizational mechanisms; and (2) to identify classroom teaching 
practices that can be replicated widely and produce positive outcomes 
that last beyond the third grade. It has a strong focus on school 
readiness for children when they enter school. When the grants are 
awarded later this fiscal year, all three agencies will share 
monitoring responsibilities. The President's Budget proposes $50 
million in fiscal year 2000 to continue and expand IERI.
                 Coordinating Services Across Agencies
    Early childhood education needs to be coordinated across Federal 
agencies and with State and local entities responsible for providing 
services. The Elementary and Secondary Education Act (ESEA), as 
reauthorized in 1994, requires that local educational agencies that use 
Title I, Part A funds to provide early childhood development services 
must comply with the Head Start performance standards. This requirement 
provides for a more careful alignment of performance goals among early 
childhood programs in the Department and HHS. The Department has worked 
in partnership with HHS in determining how the performance standards 
should apply to Title I schools. In a memo to then White House Chief of 
Staff, Leon Panetta, the Office of Management and Budget cited this 
agreement as a ``classic example of agencies working together 
effectively.'' The Department issued guidance on this provision in 
April of 1996.
    ``Safe Schools/Healthy Students'' is a new initiative by the 
Department, HHS, and Justice to support coordinated local efforts to 
provide communities with enhanced comprehensive educational, mental 
health, social service, law enforcement, and, as appropriate, juvenile 
justice services to promote healthy childhood development and prevent 
violence and alcohol and other drug abuse. Early childhood psychosocial 
and emotional development programs are among the strategies that 
grantees will address, using an integrated, community-wide approach. As 
part of this effort, the three agencies are collaborating to conduct an 
evaluation of the initiative, which will include the development and 
monitoring of a core set of indicators.
    The Even Start Family Literacy program, administered by the Office 
of Elementary and Secondary Education, is based on interagency 
coordination. Even Start draws on existing service providers to 
integrate early childhood education, adult education, and parenting 
education into a unified program. According to the second national 
evaluation of Even Start, projects are successful at arranging 
collaborative relationships. Even Start projects collaborate with a 
variety of agencies and organizations, which either act as the primary 
provider of services or supplement the services already provided by 
Even Start. For example, 25 percent of projects reported that Head 
Start was the primary provider of early childhood services, and 51 
percent reported Head Start to be a secondary provider. Rather than 
duplicating preschool services, the collaboration between the 
Department and HHS works towards improving the quality of services 
provided to our most vulnerable children. The recently authorized 
Reading Excellence Act included several amendments to the Even Start 
program that further emphasize collaboration. One of these amendments 
provides $10 million annually for Statewide Family Literacy 
coordination to help States coordinate and integrate literacy 
resources, such as those funded under the Department's Adult Education 
and Family Literacy Act, Title I, and HHS' Head Start Act.
    The Department's Office of Special Education and Rehabilitative 
Services (OSERS) funds services to young children with disabilities. 
Because children with disabilities often require a range of services 
from a variety of agencies, collaboration and coordination are 
imperative. The annual plan's performance indicators for Part C of the 
Individuals with Disabilities Education Act (IDEA), the Grants for 
Infants and Families program, include a number of performance measures 
that require cross-program coordination. For example, one of the 
program's performance indicators is, ``The number of States accessing 
all appropriate sources of funding (i.e. Medicaid, Maternal and Child 
Health Block Grant, State general revenues) will increase.'' OSERS will 
be conducting a study in 2002 of State and local implementation of Part 
C that should provide baseline data on the level of coordination.
                  Coordinating Performance Measurement
    As seen in these examples, the Department has made progress in the 
area of interagency coordination. But we know that the Department needs 
to do even more. The recent reauthorization of the Head Start program, 
with its focus on educational performance measures and literacy, 
provides an excellent opportunity for this collaboration. The HHS plan 
includes several indicators of educational progress that are consistent 
with the goal of ensuring that all children enter kindergarten ready to 
learn. For example, HHS indicators include ``Children demonstrate 
emergent literacy, numeracy, and language skills'' and ``Children 
demonstrate improved general cognitive skills.'' The Head Start Family 
and Child Experiences Survey (FACES) is explicitly measuring and 
reporting measures of Head Start children's school readiness. Early 
findings from this study were released last year.
    The Department intends to build on these activities underway 
between our agency and HHS by creating a joint coordination plan, which 
we will submit to Congress by the end of this year. Areas of 
coordination that we will address include performance indicators, 
service strategies for early childhood, and research. Coordination of 
indicators among early childhood programs was included in our annual 
plan and was also a recommendation of the Department's recently 
released report on evaluation, Federal Education Legislation Enacted in 
1994. In this report, we point out the lack of consistent expectations 
for school readiness. This makes it difficult to assess a program's 
effectiveness in supporting the learning and development that young 
children need for school success. In addition, the ECI and the Office 
of Special Education Programs are sponsoring a Study of Early Childhood 
Pedagogy at the National Academy of Sciences. The study, which will be 
completed in early 2000, will tell us what young children need to 
experience and learn if they are to be successful in kindergarten and 
what measures will best assess what young people have learned.
    In conclusion, we agree that early childhood experiences are 
critical to the future success of the Nation's children. We also 
believe that the plans developed under the Government Performance and 
Results Act can and should facilitate coordination among agencies 
serving similar populations or that have similar goals. We look forward 
to a continued dialogue about early childhood issues and coordination. 
In addition to better coordination of services, the Department also 
hopes to strengthen the quality of early childhood education nationwide 
through the elements in our proposal for reauthorization of the 
Elementary and Secondary Education Act (ESEA).
    Thank you for providing me with the opportunity to testify. I would 
be happy to answer any questions you may have.

                                <all>
</pre></body></html>
